<html>
<title> - THE CRISIS IN TIBET: FINDING A PATH TO PEACE</title>
<body><pre>[Senate Hearing 110-751]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-751
 
                         THE CRISIS IN TIBET: 
                        FINDING A PATH TO PEACE

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2008

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                     U.S. GOVERNMENT PRINTING OFFICE
47-764 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          


                         ----------            
                  SUBCOMMITTEE ON EAST ASIAN          
                     AND PACIFIC AFFAIRS          

             BARBARA BOXER, California, Chairman          

JOHN F. KERRY, Massachusetts         LISA MURKOWSKI, Alaska
RUSSELL D. FEINGOLD, Wisconsin       JOHNNY ISAKSON, Georgia
BARACK OBAMA, Illinois               DAVID VITTER, Louisiana
JIM WEBB, Virginia                   CHUCK HAGEL, Nebraska

                             (ii)          

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Boxer, Hon. Barbara, U.S. Senator From California................     1


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     5


Gere, Richard, President, The Gere Foundation, and Chairman of 
  the Board, International Campaign for Tibet (ICT), New York, NY    26

      Prepared statement.........................................    30


Gyari, Lodi, Special Envoy of His Holiness The Dalai Lama, 
  Washington, DC.................................................    33

      Prepared statement.........................................    38


Hagel, Hon. Chuck, U.S. Senator From Nebraska....................     5


Marshall, Steve, Senior Advisor, Congressional-Executive 
  Commission on China, Washington, DC............................    46

      Prepared statement.........................................    48


Menendez, Hon. Robert, U.S. Senator From New Jersey..............     4


Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3


Negroponte, Hon. John D., Deputy Secretary of State, Department 
  of State, Washington, DC.......................................     5

      Prepared statement.........................................     7


Sangay, Lobsang, Senior Fellow, East Asian Legal Studies Program, 
  Harvard University Law School, Cambridge, MA...................    53

      Prepared statement.........................................    54


                                Appendix

Responses to Additional Questions Submitted for the Record by 
  Members of the Committee

    Responses to Questions Submitted to Deputy Secretary of State 
      John Negroponte by Senator Richard G. Lugar................    61


Additional Material Submitted for the Record

    An Appeal to the Chinese People by the Dalai Lama............    63

    Seeking Unity Through Equality...............................    67

    Tibetan Political Prisoners..................................    77

    Statement Submitted by the U.S. Commission on International 
      Religious Freedom..........................................    79

    Prepared Statement of Hon. Barack Obama, U.S. Senator From 
      Illinois...................................................    81

                                 (iii)

  


                          THE CRISIS IN TIBET:
                        FINDING A PATH TO PEACE

                              ----------                              


                       WEDNESDAY, APRIL 23, 2008

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the subcommittee) presiding.
    Present: Senators Boxer, Feingold, Menendez, Cardin, Hagel, 
and Murkowski.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. The subcommittee shall come to order.
    Today, the Senate Foreign Relations Subcommittee on East 
Asian and Pacific Affairs meets to examine the ongoing crisis 
in Tibet and to review options for achieving a meaningful and 
lasting solution to this matter.
    The protests that began in Tibet on March 10, 2008, mark 
the latest chapter in the Tibetan struggle against Chinese 
oppression. For over half a century, the People's Republic of 
China has chipped away at Tibetan culture, Tibetan religion, 
and Tibetan identity.
    Today, freedom of religion, expression, and assembly are 
all severely restricted. Flying a Tibetan flag, or even 
possessing an image of the Dalai Lama, is grounds for 
punishment, including arrest.
    The State Department's most recent Country Report on Human 
Rights Practices details severe human rights abuses in Tibet, 
including, ``torture, arbitrary arrest, and detention.'' 
According to the report, repression of religious freedom is on 
the rise.
    The Government of China even ``adopted new regulations and 
other measures to control the practice of Tibetan Buddhism, 
including measures that require government approval to name all 
reincarnated lamas.''
    The wave of largely peaceful protests that began in early 
March and that turned violent as the month wore on were met 
with an increase in so-called, ``patriotic education,'' by the 
Chinese Government. The Chinese Government's patriotic 
education campaigns require, among other things, that Buddhist 
monks denounce the Dalai Lama as a separatist.
    It is clear that, during the protests, both Tibetans and 
Han Chinese suffered injuries and deaths, but, because the 
international media was expelled from Tibet during the 
protests, reports differ on the numbers and identities of those 
killed and detained. Some reports indicate that up to 4,000 
Tibetans, including monks, were arrested, with 1,000 expected 
to face trial by Chinese authorities before May 1. Tensions 
remain high, and the prospect of further violence is real.
    The Chinese Government claims that the Dalai Lama 
orchestrated the protests and the riots in Tibet, but the Dalai 
Lama has consistently denounced violence. He has said clearly, 
``I appeal to the Chinese leadership to stop using force and 
address the long simmering resentment of the Tibetan people 
through dialogue with the Tibetan people.'' In addition he 
said, ``I also urge my fellow Tibetans not to resort to 
violence.'' So, the reports that you hear, saying that the 
Dalai Lama is behind the violence, don't add up, because he's 
very clear when he says, ``I urge my fellow Tibetans not to 
resort to violence.''
    In a written appeal directly to the Chinese people on March 
28, 2008, the Dalai Lama reiterated--and this is important--
that he has, ``no desire to seek Tibet's separation from 
China,'' but that he seeks to, ``ensure the survival of the 
Tibetan people's distinctive culture, language, and identity.''
    While the eyes of the world are certainly on China as we 
move toward the Summer Olympic Games in Beijing, I certainly 
hope, and I know I speak for others, that the Chinese 
Government views the present situation as an opportunity to 
move the Tibet issue forward in a way that is acceptable to all 
sides. Any solution must respect the fundamental human rights 
and religious freedom of the Tibetan people. In pursuit of that 
settlement, the Chinese Government must engage in meaningful 
dialogue with the Dalai Lama.
    Today, we will hear from a number of distinguished 
witnesses on how to move forward toward peace in Tibet.
    On our first panel, we will hear from the Deputy Secretary 
of State, John Negroponte. Prior to his current assignment, he 
served as the first Director of National Intelligence. 
Secretary Negroponte has also served as a U.S. Ambassador to 
Iraq and as the U.S. Permanent Representative to the United 
Nations.
    On our second panel, we will hear from Mr. Richard Gere, 
the president of the Gere Foundation and the chairman of the 
board for the International Campaign for Tibet. Mr. Gere has 
been a tireless champion for the people of Tibet, as well as 
for a number of other causes. Mr. Gere will make a statement on 
Tibet before introducing our third witness, Mr. Lodi Gyari. Mr. 
Lodi Gyari is the Special Envoy of His Holiness the Dalai Lama. 
Mr. Gyari was born in Tibet in 1949. He was forced, with his 
family, to flee to India in 1959, where he began his lifelong 
advocacy work on behalf of the Tibetan people. As the Special 
Envoy of His Holiness the Dalai Lama, Mr. Gyari is the top 
individual designated to negotiate with the Government of the 
People's Republic of China. So, I say to my colleagues, we have 
a lot of people here today who really have an ability to change 
some outcomes.
    On our third panel, we will hear from Mr. Steven D. 
Marshall, a senior advisor to the Congressional-Executive 
Commission on China. He spent nearly two decades traveling and 
researching the human rights situation in China and the Tibetan 
areas of China. He has served as an expert consultant on China 
and Tibetan issues for Members of Congress and the executive 
branch.
    And finally, we'll hear from Dr. Lobsang Sangay, a senior 
fellow in the East Asian Legal Studies Program at Harvard 
University Law School. After graduating from college in India, 
Mr. Sangay won a Fulbright scholarship to complete his master's 
degree at Harvard Law School. He subsequently went on to become 
the first Tibetan to earn a doctorate degree from Harvard Law 
School. For the last 13 years, much of his work has been 
focused on his Track II initiative, an effort to bring together 
Chinese and Tibetan scholars.
    So, I certainly look forward to hearing from all our 
witnesses this afternoon. And as we get through this, I hope, 
in my closing statement, to put out some thoughts of my own on 
how we can really move forward to find a resolution. But, I 
think it's going to be good for me to wait until we hear from 
everyone, because we certainly have some great experts here 
before us.
    And it is my pleasure now to turn to the ranking member of 
the subcommittee, Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Madam Chair. I truly 
appreciate your holding this hearing. Very important. Certainly 
very, very timely.
    I, too, look forward to the testimony from the very 
distinguished panels that you have assembled, and I think that 
they will be in a position to give all of us a great deal of 
information, not only on this subcommittee, but, truly, to all 
those who care about Tibet.
    The loss of life as a result of the protests in Lhasa and 
the Tibet autonomous areas, whether it's the loss of a Tibetan 
monk or a Han Chinese or any other civilian, I think we would 
all agree, is highly, highly regrettable.
    I believe that there's a generally shared view within this 
room that, just as protests on the part of the Tibetan monks 
should be peaceful, the Chinese authorities must also 
differentiate between peaceful protestors and rioters. The 
aggressive tactics in this conflict have only served to 
escalate the level of violence and inflame passions, truly, 
around the world.
    I do share the concern of many about the inability of the 
international media and the nongovernmental organizations to 
freely report on the conditions in Tibet, for without this 
transparency it is--it's truly difficult to distinguish the 
truth from the rumor.
    I'm also very concerned about the reports of the Patriotic 
Education campaign, where the Tibetan monks are forced to 
denounce their culture and denounce the Dalai Lama. Perhaps the 
inflammation of passions is the intentional; whether it's to 
put pressure on the international community over the upcoming 
Summer Olympics and to highlight the plight of the Tibetan 
people and their culture, or to stoke a sense of nationalism to 
solidify opinion at home. What it has not done, however, is 
brought us any closer to resolving the future of Tibet. And, in 
fact, it appears to have done just the opposite.
    During the course of today's hearing, I'm hopeful that 
we'll learn more about how the events of these past 6 weeks 
have impacted the prospects for a mutually acceptable long-term 
solution to Tibet's future, and what role the United States 
can, and hopefully will, play in that solution. I do look 
forward to hearing the testimonies of the witnesses, their 
insights, and their wisdom that they can provide on this issue.
    And, with that, Madam Chair, I will conclude my remarks so 
that we can hear from our witnesses. And, thank you.
    Senator Boxer. Thank you very much.
    I'm going to call on our colleagues for 5 minutes each.
    Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Madam Chair. And thank you for 
holding this important hearing.
    You know, the recent developments in Tibet, in which 
Buddhist monks and other ethnic Tibetans were violently 
punished, and, in some cases, killed, for participating in 
protests, are disturbing, and they should be unacceptable to 
anyone who believes in basic human rights and in those freedoms 
that we enjoy. And it seems to me that the United States needs 
to be more than a spectator, it needs to be a strong voice of 
the world. We are reminded that these recent developments in 
Tibet are only the latest chapter in the long history of 
Chinese human rights concerns.
    And I get concerned, Madam Chair, when I hear Stephen 
Hadley, the President's National Security Advisor, in his 
appearance on ``This Week'' on April 13, in which he 
erroneously referred to Nepal seven times when speaking about 
Tibet. And I wonder, is that emblematic of the lack of focus of 
this administration on Tibet? The eyes of the world are on 
Tibet as China prepares for the Olympics, and we wish the 
administration's eyes were so focused, as well. It has 
continued to employ what it calls ``quiet diplomacy'' in that 
approach, but, in my mind, that hasn't had much visible 
results. Even at a time when our leverage is great, the 
Olympics are approaching, that vision that the Chinese talk 
about, ``One World, One Dream,'' well, it's time to put that to 
a test. And when the need is even greater, with monks at risk 
of starvation in locked-down monasteries, with 4,000 in 
detention, with 1,000 in TAR facing trial by May the 1st, with 
patriotic education sweeps continue, what tangible results can 
we cite from the private-channel approach that we have seen the 
administration take so far?
    And lastly, Madam Chair, it seems to me that we have an 
access problem, a lack of visits by independent human rights 
monitors through religious institutions to evaluate the welfare 
of monks and nuns; international medical corps, the medical 
facilities in and around Lhasa, to evaluate the conditions of 
care for those injured in the demonstrations; accounting from 
the Chinese authorities for all the missing and the dead by 
name and location; and assurances that detainees will be 
processed according to international standards of due process 
and the rule of law. The United States has a lot of 
international tools at its disposal--the ICRC, the U.N. 
Commission--U.N. Human Rights Commissioner, U.N. rapporteurs--
that it can call upon to improve access and avoid bilateral 
obstacles. Why isn't the administration engaged in those?
    So, I will cease there, because I'm looking forward to 
hearing the testimony of the Assistant Secretary.
    And, we will pursue those questions when the opportunity 
comes.
    Senator Boxer. Absolutely. Absolutely.
    And I'm very pleased that so many colleagues have come, 
because I know there are so many demands on their time. And I 
think it speaks to the importance of this issue.
    Senator Hagel.

                STATEMENT OF HON. CHUCK HAGEL, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Madam Chairwoman, thank you. And I will 
withhold until we have an opportunity to hear our witnesses. 
But, thank you and our colleague, Senator Murkowski, for 
scheduling this hearing. It's important, and it cuts to the 
essence of who we are as Americans, and it is a critical issue 
for the world. So, thank you.
    Senator Boxer. Thank you very much, Senator.
    Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Madam Chairwoman, thank you very much. And 
I appreciate very much your holding this hearing.
    I agree with colleague Senator Menendez and his comments, 
and Senator Hagel. This is a defining issue for our country.
    What's happening in Tibet cannot go unchallenged. The 
Chinese Government needs to be held accountable. The United 
States and the international community have options to become 
more effective in protecting human rights.
    I have the honor of chairing the Senate Helsinki 
Commission, which is well known for its record on human rights, 
internationally. And I think this Nation can play a stronger 
role.
    I look forward to hearing from our distinguished panelists, 
and I hope that we can become more effective in standing up 
against the violations of basic rights, by China or any other 
country.
    Senator Boxer. Thank you very much, Senator.
    And we're now going to begin with our first panel. And he's 
got that panel all to himself, The Honorable John D. 
Negroponte. And we'll set the clock for 10 minutes so you don't 
have to rush through. And we look forward to hearing from you.

   STATEMENT OF HON. JOHN D. NEGROPONTE, DEPUTY SECRETARY OF 
           STATE, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Negroponte. Thank you very much, Chairman Boxer, 
Senator Murkowski, other members of the committee. I'm pleased 
to be here today to talk about the situation in Tibet. I have 
submitted a longer statement for the record, and these are some 
brief oral remarks.
    A little over a month ago, what began as peaceful protests 
in Lhasa erupted into violence and loss of lives and property, 
spanning the Tibetan areas of China. We are deeply troubled by 
the reports of bloodshed, arrests, and mistreatment of 
protesters in and around Tibet. The administration, at all 
levels, beginning with President Bush and Secretary Rice, has 
called for the Chinese Government to exercise restraint, and 
for all sides to refrain from violence.
    We have repeatedly urged China to engage in dialogue with 
the Dalai Lama directly and through his representatives. As the 
President has said, ``There is no better person for Chinese 
authorities to talk to than the Dalai Lama. He is the 
undisputed spiritual leader of the Tibetan people, and is a man 
of peace.'' The Chinese Government should seize the opportunity 
to talk to the Dalai Lama, as someone who has repeatedly 
stated, as you observed, Chairman Boxer, that he opposes 
violence and does not seek independence for Tibet. If Beijing 
does not engage with the Dalai Lama now, it will only serve to 
strengthen those who advocate extreme views. Public 
vilification of the Dalai Lama will not help defuse the 
situation.
    The United States Government recognizes Tibet as part of 
the People's Republic of China, and we welcome a stable, 
peaceful, and prosperous China. We engage China as a growing 
economic powerhouse, as a nuclear Permanent-Five Member of the 
United Nations Security Council, and an increasingly important 
actor on the international scene. At the same time, we have 
serious concerns about the recent events, human rights 
conditions and limits on religious freedom in Tibet.
    The Tibetans have legitimate grievances stemming from years 
of repression and Chinese policies that have adversely impacted 
their religion, culture, and livelihoods. An increasingly 
influential China has the responsibility to protect and uphold 
the rights of its minority groups. Furthermore, stability in 
China, which is in our interest, will not be possible unless 
Beijing addresses Tibetan grievances. We want to see a 
confident, strong China that protects the human rights of its 
citizens and acts responsibly around the world.
    Accordingly, we urge the authorities in Beijing to 
reexamine longstanding policies in Tibetan areas that 
exacerbate tensions. We seek unfettered access to Tibet for 
diplomats and journalists, and the release of those protesters 
who expressed their views peacefully.
    I would like to underscore that our support for human 
rights in Tibet did not just start this year. We have engaged 
the People's Republic of China on this issue since we 
established diplomatic relations in 1979. The President's 
meetings with the Dalai Lama and his attendants last fall at 
the Congressional Gold Medal Ceremony honoring the Dalai Lama 
were strong signals of our support. We also show support for 
human rights in Tibet in our everyday working-level 
interactions with China. Our Office of the Special Coordinator 
for Tibetan issues, established over 10 years ago, is another 
example of our commitment to human rights and religious freedom 
for Tibetans.
    Let me now turn to the question of the Beijing Olympics. 
President Bush has announced his intention to attend the 
Olympics, and has made clear that he believes that it is 
important to show the 1.3 billion Chinese people that we 
welcome their entrance onto the international stage. The Dalai 
Lama has said that he supports Beijing's hosting of the Olympic 
Games, and does not support a boycott. An Olympic boycott or 
sanctions could inflame tensions and polarize attitudes. Let me 
assure you that this administration will continue to take the 
opportunity--before, during, and after the Olympics--to urge 
improvements from the Chinese on Tibet and human rights.
    For Beijing and China's Tibetan populations, there is a way 
forward. Through outreach and genuine dialogue, China and the 
Dalai Lama can begin to bridge differences, explore the meaning 
of genuine autonomy, and address longstanding grievances.
    As part of our China policy, I believe that the United 
States can play a constructive role by continuing to urge 
substantive results-based dialogue between China and the Dalai 
Lama to better the lives of Tibetans in China.
    We note that there have been six rounds of talks with the 
Dalai Lama's representatives since 2002, with the last held in 
2007. In the end, only the Chinese Government and the Tibetans 
themselves can address and resolve their differences. We look 
to them to do so peacefully and in accord with international 
standards of religious freedom and human rights.
    Thank you for your attention. Madam Chairman, I'd be happy 
to try and answer any questions that the committee may have.


    [The prepared statement of Ambassador Negroponte follows:]

  Prepared Statement of Hon. John D. Negroponte, Deputy Secretary of 
               State, Department of State, Washington, DC

    Chairman Boxer, Senator Murkowski, members of the committee, I am 
pleased to be here today to talk about the situation in Tibet.
    A little over a month ago, what began as peaceful protests in Lhasa 
erupted into violence and the loss of lives and property spanning the 
Tibet Autonomous Region and other Tibetan areas of China. The United 
States welcomes a stable, peaceful, and prosperous China, and we have a 
broad agenda with that country, which is a growing economic powerhouse, 
a nuclear P-5 member, and an increasingly important actor on the 
international scene. At the same time, we engage China in a way that is 
supportive of our political values--urging respect for human rights, 
religious freedom, and democracy. The United States recognizes Tibet as 
part of the People's Republic of China, but we have very serious 
concerns about the recent events, human rights conditions, and limits 
on religious freedom there. The United States calls upon the PRC 
Government to exercise restraint in resolving the recent unrest and 
urges dialogue with the Dalai Lama, but it is up to China and the 
Tibetans to resolve their differences. In this testimony, I would like 
to touch on the recent events in Tibet, outline our response, and 
discuss next steps.

            RECENT EVENTS AND THE ADMINISTRATION'S RESPONSE

    To the best of our knowledge, peaceful protests began in Lhasa on 
March 10, led by several hundred monks from three monasteries. Reports 
that Chinese police mistreated and arrested some of the monks angered 
Tibetans in Lhasa. On March 14, interaction between the protesters and 
the authorities in Lhasa descended into violence, including attacks on 
ethnic Han and Hui Muslim residents and their property. This violence 
led to a security crackdown and widespread arrests by the Chinese 
authorities. Over the next several days, protests spread to many other 
Tibetan areas of China. Chinese authorities have confirmed that 
security forces responded to protests in some areas with deadly force. 
Accurate information about the number of people killed or injured in 
the protests, riots, and subsequent crackdown and on the number of 
people arrested has been difficult to ascertain. While the Chinese 
Government has organized two tightly controlled trips for journalists 
and one for diplomats to Tibetan areas, it continues to restrict access 
to those areas, impose a virtual media blackout, and refuses access to 
the detainees. Last week, China's state-run media acknowledged the 
detention of approximately 4,000 individuals in Lhasa and in parts of 
Gansu province. Reports of mistreatment of detainees are numerous.
    We are deeply troubled by the reports of bloodshed, arrests, and 
mistreatment of detainees, and share the concerns of Members of 
Congress and the American people over these disturbing events. The 
President and Secretary Rice have called for the Chinese Government to 
exercise restraint and for all sides to refrain from violence. We urge 
all Tibetans to heed the Dalai Lama's call for nonviolence as well. We 
have, at all levels of the administration, urged China to engage in 
substantive dialogue with the Dalai Lama directly and through his 
representatives. At the same time, we urge China to take a close look 
at longstanding policies in Tibetan areas that have created tensions 
because of their impact on Tibetan religion, culture, and livelihoods, 
to allow unfettered access to Tibet for diplomats and journalists, and 
to release protestors who expressed their views peacefully. We are also 
concerned about strident rhetorical attacks against the Dalai Lama.
    Since the outbreak of protests in March, we have spoken out about 
Tibet frequently and at the highest levels. The President expressed his 
concern to President Hu during a March 26 phone call. Secretary Rice 
has called Foreign Minister Yang and has spoken with him and publicly 
about the situation numerous times. I have personally discussed the 
situation with Chinese Ambassador Zhou Wenzhong and with the Dalai 
Lama's Special Envoy, Lodi Gyari (LOW-dee GARE-ee), who I understand 
will be testifying in a few moments. On Monday, Under Secretary for 
Democracy and Global Affairs, Paula Dobriansky, met with the Dalai Lama 
in her capacity as Special Coordinator for Tibetan Issues. On the other 
side of the Pacific, our Embassy in Beijing, led by Ambassador Randt, 
has repeatedly pressed U.S. concerns with high-level officials in the 
Ministry of Foreign Affairs. Secretary Paulson also raised our concerns 
during his most recent trip to China. While we have made heavy use of 
our bilateral channels, we have also joined the European Union and 
others in raising our concerns at a March 25 meeting of the United 
Nations Human Rights Council in Geneva. Other leading members of the 
international community have joined us in calling for restraint and 
dialogue with the Dalai Lama.

                 U.S. SUPPORT FOR HUMAN RIGHTS IN TIBET

    I'd like to underscore that our support for human rights in Tibet 
did not start just this year. Our efforts with the PRC have spanned the 
history of our relationship since we established diplomatic relations 
in 1979. As the Secretary recently said, we show our support for human 
rights in Tibet in what we do every day in our working-level 
interactions with China. The President's meetings with the Dalai Lama 
in both of his terms in office and his attendance at the Congressional 
Gold Medal ceremony honoring the Dalai Lama last fall are important 
demonstrations of support at the highest levels of the U.S. Government. 
The efforts of our Office for the Special Coordinator for Tibetan 
Issues, established over 10 years ago, are another tangible example of 
our commitment to human rights and religious freedom for Tibetans.
    The Tibetans have legitimate grievances, stemming from years of 
repression and Chinese policies that have adversely impacted Tibetan 
religion, culture, and livelihoods. In the months preceding the 
protests, restrictions on religious freedom were further tightened, 
leading to increased frustration among the local Tibetan population. In 
order to be a great and respected power, China will have to make real 
efforts to guarantee to its own citizens the internationally recognized 
rights and fundamental freedoms enshrined in China's own constitution 
and in the Universal Declaration of Human Rights. During the 
Secretary's trip to Beijing in February, the Chinese agreed to resume 
our human rights dialogue. We hope to move quickly to resume the 
dialogue and use the opportunity to hold substantive discussions on the 
situation in Tibet at that meeting.
    As the President said, there is no better person for Chinese 
authorities to talk to than the Dalai Lama since he is the undisputed 
spiritual leader of the Tibetan people. He is also a man of peace. The 
Chinese Government should seize the opportunity to talk to those 
Tibetans, represented by the Dalai Lama, who oppose violence and do not 
seek independence for Tibet. If Beijing does not engage with the Dalai 
Lama now, it will only serve to strengthen those who advocate extreme 
views. An increasingly influential China has the responsibility to 
protect and uphold the rights of, and respect for, minority groups like 
Tibetans. Stability in China is also in our interest. We want to see a 
confident, strong China that protects the human rights of its citizens 
and acts responsibly around the world. Stability will not be possible 
unless Beijing addresses the grievances of the Tibetans and works 
together with them to preserve their culture, language, and religious 
freedom.

                         TIBET AND THE OLYMPICS

    The Dalai Lama has said that he supports Beijing's hosting of the 
Olympic Games and does not support a boycott. President Bush has 
announced his intention to attend the Olympic Games in Beijing and has 
made clear that he believes that it is important to show the Chinese 
people that we welcome their entrance onto the international stage. As 
our Secretary said recently, these Olympics are not just a moment of 
pride for the Chinese Government but also for 1.3 billion Chinese 
citizens. Calls for an Olympics boycott or sanctions could polarize 
attitudes on both sides.
    While, for these reasons, the U.S. Government wants to see a 
successful Olympics and does not support calls for an Olympics boycott, 
we recognize that some have a different view about a boycott. This 
position reflects real concerns, widely held in the United States and 
elsewhere, over China's human rights record. Let me assure you that 
this administration will continue to take the opportunity before, 
during, and after the Olympics to talk to the Chinese about Tibet and 
human rights. We continue to urge China to fulfill its Olympics bid 
commitments to increase access to information and expand freedom of the 
press, including in Tibetan areas, as well as take other steps to 
improve its record on human rights and religious freedom.

                            THE WAY FORWARD

    Our policy toward China aims to shape the choices that Chinese 
leaders make about how to use their growing power. We use our bilateral 
discussions, as the President has noted, to make our concerns clear to 
Chinese officials and to encourage China to be a responsible actor at 
home and around the world. For the Chinese Government and the Tibetan 
people of China, there is a way forward. Through outreach and genuine 
dialogue, China and the Dalai Lama, the spiritual leader of the vast 
majority of Tibetans, can begin to bridge differences, explore the 
meaning of genuine autonomy and address longstanding grievances. As 
part of our China policy, I believe that the United States can play a 
constructive role in continuing to urge substantive, results-based 
dialogue between China and the Dalai Lama to better the lives of 
Tibetans in China. We note that there have been six rounds of talks 
with the Dalai Lama's representatives since 2002, with the last held in 
2007. In the end, only the Chinese Government and the Tibetans 
themselves can address and resolve their differences. We look to them 
to do so peacefully and in accord with international standards of 
religious freedom and human rights.

    Senator Boxer. Thank you very much, Mr. Secretary.
    I think each of us will have 7 minutes, and we'll go back 
to a second round, if we need to.
    Secretary Negroponte, on April 2, 26 of my Senate 
colleagues joined me in sending a letter to Chinese President 
Hu Jintao about the situation in Tibet, and our letter called 
on the Government of China to do three things: First, to allow 
independent monitors and the foreign press unfettered access to 
the region; second, to release of those Tibetans detained for a 
peaceful protest; and, third, to engage in substantive dialogue 
with the Dalai Lama to restore stability and bring genuine 
autonomy to the region.
    Now, I was pleased to see that Undersecretary of State 
Dobriansky echoed those three requests in an op-ed that 
appeared earlier this week in the Washington Post.
    Now, Mr. Secretary, in your opening statement, you detail 
the high-level discussions that have taken place between United 
States and Chinese officials on Tibet, but you didn't mention 
whether these high-level discussions have yielded any tangible 
results on these three matters: Allowing independent monitors 
and foreign press unfettered access, releasing Tibetans 
detained for peaceful protests, and engaging in substantive 
dialogue with the Dalai Lama to restore stability, et cetera. 
So, I guess my question is: Have these talks yielded any 
tangible results?
    Ambassador Negroponte. What I would say in response, Madam 
Chairman, is, yes, as I mentioned, we have made demarches at 
various levels, from the President on down. The President, the 
Secretary of State, myself, Ms. Dobriansky, our Ambassador, of 
course, on a very regular basis. But, I think that the results, 
thus far, I regret to report to you, have been minimal, at 
best. I would say, in one area, we pressed, very early on 
during this situation, for access by our consular officials who 
are stationed in the province adjacent to the Tibetan 
Autonomous Region, for access to Tibet, and that was--has not 
yet been granted. There was one group of diplomats, including 
an American embassy diplomatic official, who was given a guided 
tour of Lhasa at a fairly late stage in this situation. But, 
I'd say that, thus far, none of the requests and suggestions 
that we have made have been significantly addressed by the 
Beijing authorities. But, I have no doubt that they are aware, 
and vividly aware, of what it is that we are advocating.
    Senator Boxer. Well, I mean, it's discouraging. I know that 
you're discouraged that, so far, we haven't seen anything bear 
fruit. And that's one of the reasons, frankly, that I wanted to 
have this hearing. I'm hoping to push hard here, in our way, in 
each of our ways, to, maybe make some progress.
    Now, in 2002, President Bush signed the Tibetan Policy Act. 
That law states that the Secretary of State, ``should make best 
efforts to establish an office in Lhasa, Tibet, to monitor, 
political, economic, and cultural developments in Tibet.'' Now, 
I understand that such an office has not been established, and 
the United States monitors events in Tibet from our consulate 
in Chengdu, which is more than 750 miles away from the Tibetan 
capital of Lhasa. Do you agree that the United States should 
have a permanent diplomatic presence in Lhasa?
    Ambassador Negroponte. The answer--the short answer to that 
is yes. We establish consulates in our respective countries, 
China and the United States, on a basis of reciprocity, and we 
each have given each other lists of cities in which we would 
like to establish consulates. And Lhasa is one of those cities 
listed in our list for--request for establishing a consular 
office. But, up until now, we have not been able to achieve 
that. In other words, it depends on the reciprocal consent of 
the Chinese Government. But, it is a priority for us to 
establish a consulate; and, were the Chinese Government to 
grant us permission to establish such a consulate in Lhasa, I'm 
confident that we could establish such an office in very short 
order.
    Senator Boxer. OK. Now, is Lhasa the first on that list of 
priorities?
    Ambassador Negroponte. It is.
    Senator Boxer [continuing]. Of all of the cities?
    Ambassador Negroponte. Well, we have six or seven on the 
list, and Lhasa is not the first, but I think that, in today's 
context and given the events that have happened, if the 
authorities in Tibet were to say that we were welcome to 
establish a consulate in Lhasa, I think we would promptly do 
that.
    Senator Boxer. Well, that's not my question. I think, if 
this is truly a priority, and you don't need to answer this, 
but I think we all know--all of us sitting here--that when we 
have requests to make, the priority of those requests are 
always very important. And, given what has happened in the 
Tibetan region, I would hope you might go back and rejiggle 
these cities and put Lhasa at the top. I hope you consider 
speaking with Secretary Rice about that.
    Ambassador Negroponte. I think that's a very fair 
suggestion.
    Senator Boxer. Thank you. Thank you.
    Let me ask you this. Do you, and I don't mean to put you on 
the spot on this, but you're a diplomat, and you'll figure out 
how to answer it. [Laughter.]
    I know you have so much experience, because I've met with 
you over the years, but what I'm waiting for is an extremely 
strong and clear statement from the President on this issue, 
one that basically says, ``I stand by the Dalai Lama. The Dalai 
Lama does not want, you know, to have a separate--is not a 
separatist, he wants to resolve this peacefully.'' And I'm--
because the President is going to the opening ceremonies and--I 
think--when I was asked about it, I just said, ``Look, this is 
something that he could decide, but it doesn't''--because the--
I feel bad for the athletes who have trained and all of that, 
so I understand all that, and I'm not being critical at all. 
But, what I think is important to do something. For example, 
make this strong statement, and also go to the Tibetan region.
    So, my question to you is: As a diplomat, do you think it's 
possible that the President would consider making a clear, very 
strong and unequivocal statement, that he stands with the Dalai 
Lama and that his intention is, yes, to go to the Olympics, but 
also to go and visit the Tibetan region? Is that a possibility?
    Ambassador Negroponte. Well, let me answer it this way. The 
President, not only figuratively, but literally, has stood with 
the Dalai Lama. And you, perhaps, were at that ceremony, where 
he conferred the Congressional Gold Medal on the Dalai Lama. 
And that was a very strong statement, and one that was taken 
and done over the fairly vigorous objections of the Chinese 
authorities, but the President persisted and insisted on doing 
that. So, I don't think there's any doubt where the President 
stands on the issue of the Dalai Lama and human rights in 
Tibet. And, frankly, I can hardly think of a stronger advocate 
of human rights in our Government than the President of the 
United States. So, we're going to----
    Senator Boxer. So, do you think he would consider, or would 
you talk to him about, you know, visiting the Tibetan region? 
Because if he goes to China for the Olympics, it seems to me 
that could show a balance, that he's going to the Olympics for 
the athletes, but he wants to make a statement, and he's going 
to go to the Tibetan region. Any chance of that, that you'd 
support that recommendation?
    Ambassador Negroponte. I will certainly convey that 
suggestion, but I would not want to give you any prediction----
    Senator Boxer. OK. But, I hope you'll consider it----
    Ambassador Negroponte [continuing]. As to what the 
likelihood there might be, right.
    Senator Boxer [continuing]. Because I think it would very 
important--yes, he did stand with the Dalai Lama, as did we 
all, but this is different because of the Olympics and because 
some world leaders are not going, et cetera, et cetera. I think 
his going to the Tibetan region, either before or after, would 
be very important.
    Well, I'll stop----
    Ambassador Negroponte. But, I just want to make one more 
point.
    Senator Boxer. Yes.
    Ambassador Negroponte. Madam Chairman, I do think it's 
important to make, and I should have made it right at the 
outset. The President also believes it is very important, given 
the relationship we have with China and the different equities 
at stake, including human rights in China, that he have good 
relationships with the top Chinese leaders, so that he can 
engage them on these and many other delicate issues. So, I 
don't think he wants, while totally supportive of human rights 
in China, he also wants to maintain the kind of relationship 
with Chinese authorities that permits him to get his message 
effectively across, and to not burn his bridges with the top 
Chinese leaders.
    Senator Boxer. Well, I don't think I've suggested that. I 
don't think----
    Ambassador Negroponte. No, I don't think you have.
    Senator Boxer [continuing]. Anybody has suggested it. And I 
can tell you this, when you really do have friends, you've got 
to tell them when you think they're wrong. Otherwise, it isn't 
a friendship. It's not really a friendship.
    OK. Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chair.
    I want to continue this discussion about the dialogue. And 
you have said, Mr. Secretary, that--repeatedly--that the key is 
with the dialogue. And Paula Dobriansky, in her op-ed that the 
chairman mentioned, says, ``Meaningful dialogue presents the 
only viable way forward.'' And yet, I think all have expressed 
the level of frustration that the dialogue continues, and you 
have multiple rounds of talks, and we're really not seeing that 
positive action, we're not seeing the good results, or, really, 
results at all, coming forward.
    You've also just indicated, then, that sanctions, at least 
as they might fit in with the Olympics, would only serve to 
inflame the tensions, and that is not the route to take. Well, 
if we're not making progress on dialogue, and sanctions are not 
the route to take because they only serve, further, to inflame 
tensions, what can we do more?
    Ambassador Negroponte. We haven't made progress--or, they 
have not made progress on dialogue, although, as you know, 
there have been discussions, in fits and starts over the past 
years, since 2002, there have been seven sessions. There was 
dialogue previously, during the previous 20 years, ever since 
Deng Xiaoping, there have been sporadic efforts at coming to 
some kind of an understanding. So, I don't think we should rule 
out the possibility--indeed, we shouldn't lose hope that that 
kind of dialogue cannot be resumed at some point, and hopefully 
sooner rather than later.
    There's also dialogue with our interlocutors in Beijing, 
and I think we have to keep bringing to their attention the 
concerns that we have about this situation. And I would have 
thought, given the outpouring of reaction that there's been to 
the Olympics and some of the protests that have taken place in 
Europe and elsewhere, that they must be very mindful of the 
issues that this is creating for China's image. And I would 
have thought that they have an interest in thinking hard about 
what they can do, through a process of dialogue and other 
peaceful means, to work their way out of the very difficult and 
unsatisfactory situation in which they find themselves at the 
moment.
    Senator Murkowski. Well, and that was going to be one of my 
question, too, is, If you--you've recognized that it really is 
between Tibet and China, they are the ones who must resolve 
this issue. We can offer our input and help to facilitate, but, 
you know, sometimes maybe we're not the best facilitator, or 
the best one to carry the message, so you look to others who 
can put that pressure. And, as you mentioned, the protests in 
Europe, the--yesterday--I guess it was yesterday--in response 
to demonstrations in China and the boycotts of the French 
companies, France sent three high-level diplomats to China to 
soothe the tensions over there, which makes you wonder whether 
China is essentially prepared now to use its economic clout to 
influence the international pressure on the subject of Tibet, 
or even Taiwan, a completely different subject from today's 
hearing. But, it does make you wonder, How can we further 
attempt to influence China, when they don't appear to be 
``influence-able''?
    Ambassador Negroponte. Well, I guess----
    Senator Murkowski. It's not a word, but----
    Ambassador Negroponte. No----
    Senator Murdowski [continuing]. You know my point, here. 
[Laughter.]
    Ambassador Negroponte. I certainly do. And I think it's 
hard, although I think that any country, China or any other 
country, in the world--cares about its international image. 
But, I think, more fundamentally, and as I said in my opening 
statement, they care about their own stability and the harmony 
of their own society. After all, Hu Jintao wants to create a 
harmonious society. Well, they've got some signs of fairly 
serious disharmony, if that's a word, in Tibet and in the 
Tibetan-populated adjacent to the Tibetan Autonomous Region. 
So, I think they've got to be encouraged to see their way 
through this situation, and see their way to a point where they 
would realize and appreciate, I hope, that their own best 
interests are probably served by some kind of a dialogue about 
meaningful autonomy and some kind of a peaceful resolution of 
the Tibetan situation that is respectful of Tibetan human 
rights and their religion within the context of Chinese 
sovereignty. No one here is suggesting Tibetan independence.
    Senator Murkowski. Have we made any progress--you mentioned 
that, apparently, at least one guided tour was provided to a 
diplomat. In terms of the access that we have requested be 
given to diplomats and to journalists, is there anything there, 
that we can point to, where there has been a little bit of 
progress made?
    Ambassador Negroponte. I believe there's been a bit more 
access given to journalists. I have just been told that there 
were three tours for journalists.
    Senator Murkowski. In recent months, then, or----
    Ambassador Negroponte. Since this crisis erupted.
    Senator Murkowski. Yes.
    Ambassador Negroponte. So, that's to the good. I believe 
there's been a bit of a reduction in the profile of the 
security forces, in terms of the display of the army and so 
forth. And I think there probably are some measures that, if 
they were able to take, I think would perhaps help defuse this 
situation, such as lowering the security profile and taking a 
number of measures that wouldn't be tantamount to offering 
independence or anything else.
    Senator Murkowski. And we have encouraged or suggested that 
they do just that?
    Ambassador Negroponte. Well, I certainly would encourage 
the Chinese to do them. I mean, keeping the Liberation Army's 
profile low, try to equip their police with less intimidating 
uniforms and gear, things like that. Certainly the more serious 
problems have to do with the Beijing authorities' attempts to 
manage the religious affairs of the Tibetan people, which I 
think goes to the heart of the cultural questions at issue 
here. And also to stop, and Paula Dobriansky mentioned this in 
her op-ed piece, the vitriolic campaign against the Dalai Lama, 
who, after all, does not advocate independence, does not 
advocate boycotting the Olympic Games, and I said in my 
remarks, we believe is a man of peace.
    Senator Murkowski. Thank you. My time is expired.
    Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Feingold.
    Senator Feingold. Thank you, Madam Chairman, for holding 
this timely and important hearing.
    Thank you, also, to the witnesses who come before this 
committee to provide us with your assessment of the situation 
in Tibet.
    Over the past few weeks, the waves of protests throughout 
Tibet have been met with brutal violence and an equally brutal 
crackdown. These tactics are a clear reminder of the injustices 
inflicted on the Tibetan people and the political and cultural 
and religious oppression that continues there. After almost 30 
years, it is long past time for the Chinese Government to end 
these abuses and engage in meaningful dialogue with the Tibetan 
people, so I look forward to hearing more responses from Deputy 
Secretary Negroponte with regard to what actions the 
administration is taking to make clear to--this clear to the 
Chinese Government.
    The United States Government must use every available 
opportunity to engage China on its human rights record and its 
responsibilities as a key member of the international 
community. We cannot treat human rights as a side issue while 
we focus on trade or other pressing matters. And we cannot give 
China a pass, simply because of its power and importance. China 
is a great power, but it is not yet a good power. I hope this 
and future administrations, as well, will recognize that 
supporting human rights in China in and around the world is in 
our country's interests and consistent with our country's 
highest values.
    Mr. Negroponte, can you clarify what kinds of leverage the 
United States Government has with China when it comes to 
encouraging them to engage in direct dialogue with the Tibetan 
leaders? And have any new points of leverage emerged since the 
outbreak of the protests?
    Ambassador Negroponte. Well, I think that the most 
effective leverage, if one could call it that, Senator, is 
engagement with the authorities in Beijing, and to call to 
their attention the concerns we have about this situation. In 
other terms, I think there are those who might advocate some 
kind of sanctions or a boycott of the Olympics and so forth, 
and, in our view, we think that that kind of behavior would 
seriously risk being counterproductive and would not advance us 
towards our objective. So, I think it's through intense 
diplomatic dialogue.
    Senator Feingold. Well, I understand, when Secretary 
Paulson was in China to discuss trade issues as a part of a 
routine economic exchange between the two nations, he agreed to 
raise concerns with--or, about Tibet. Can you elaborate on what 
is meant by ``raising concerns'' in this context? Has the 
administration conveyed concerns about the crackdown in Tibet 
directly to the Chinese Government?
    Ambassador Negroponte. We certainly have. I cannot replay 
for you here the exact words of Secretary Paulson's 
conversation, but as I mentioned earlier, even President Bush 
has raised our concerns about Tibet with President Hu Jintao. 
Secretary Rice has. I have, when I deal with my counterpart, 
the Executive Vice Foreign Minister of China. And what we 
basically say is, ``We're concerned about what we believe to be 
the abuse of the human rights and the religious rights and 
cultural freedoms of the Tibetan people, and we believe that 
you need to, you should, take measures to address this question 
through meaningful dialogue with Tibetan representatives.''
    Senator Feingold. Given that India is host to the largest 
number of Tibetan exiles, what role do you see India playing 
with regards to Tibet and, specifically, in any dialogue, and 
how is the United States engaging with India on this point?
    Ambassador Negroponte. I think I'd have to take that 
question, Senator. It's a very good question, and I suspect 
that there have been discussions. I just cannot recall them at 
this particular moment.
    Senator Feingold. If you could get that to me later, I'd 
appreciate it, Mr. Negroponte.
    Ambassador Negroponte. Yes.

    [Ambassador Negroponte's response follows:]

    India has hosted over 100,000 Tibetan refugees, the largest 
population outside China, since 1959, when the Dalai Lama and others 
fled China. The Indian Government provided many of the Tibetans who 
entered India before 1986 with registration certificates and residence 
permits, which could enable them to rent homes, operate businesses, 
conduct financial transactions, and travel internationally. Since 1986, 
Tibetans have continued to enter India; after they receive an audience 
with the Dalai Lama they are often placed in various educational, 
vocational and religious institutions throughout the country. Tibetans 
regularly tell U.S. Government officials that the Indian Government 
treats them very well.
    Since 1991, the U.S. has funded reception centers and education, 
water, and health care programs for Tibetan refugees in India. Last 
year, for example, we provided $2.5 million to the Tibetan Refugee 
Reception Centers in Delhi, Dharamsala, and Kathmandu (Nepal) which 
provide food, accommodation, clothing and transportation fare to newly 
arrived refugees from Tibet. The Indian Government has been receptive 
to U.S. offers of assistance to Tibetan refugees.
    We are involved in quiet discussions with the Indian Government on 
the possible resettlement of some Tibetan refugees in the United 
States. U.S. officials at all levels regularly meet with both Indian 
Government officials and Tibetan exile leaders to confer about the 
situation in the region and to emphasize the U.S. position that China 
should engage in substantive dialogue with the Dalai Lama and address 
policies in Tibetan areas that have created tensions due to their 
impact on Tibetan religion, culture, and livelihoods. The Under 
Secretary for Democracy and Global Affairs, Paula Dobriansky was in 
India on April 23 and 24 for meetings with the Indian Government, where 
a number of issues surrounding Tibet were discussed.
    Sensitivities in the India-China relationship, resulting in part 
from a longstanding border dispute and competition for regional 
influence, have limited India's ability to facilitate dialogue between 
the Chinese Government and the Dalai Lama and his representatives. 
However, the Indian Government and its people have appealed to both the 
Chinese Government and the Dalai Lama and his representatives to 
resolve their differences through such a dialogue.


    Senator Feingold. I note in your testimony that you 
discussed United States support for human rights in Tibet since 
1979, and that, while a consular office does not exist in 
Lhasa, that you do, in your testimony, highlight the Office of 
the Special Coordinator for Tibetan Issues. How does this 
office coordinate with you on China policy, the Embassy in 
China, and other United States agencies?
    Ambassador Negroponte. Well, the coordinator for Tibet 
happens also to be the Undersecretary for Global Affairs, Ms. 
Paula Dobriansky, and we coordinate with each other directly. 
We consult on these matters. And Ms. Dobriansky has the lead on 
issues with regard to Tibet. And we work together in trying to 
implement the various policies that she advocates and for which 
she's responsible. And she also relates, as well, to our 
Ambassador in Beijing on these issues. She maintains contact, 
of course, with the Tibetan community, including one of our 
panelists today, Mr. Lodi Gyari, and plays quite an active role 
in the issue of seeking to protect and advance the rights of 
the Tibetan people.
    Senator Feingold. I'm also concerned about the arrest of 
those, by the Chinese Government, during the protests. Could 
you briefly discuss if the U.S. Government is aware of their 
locations and how they are being treated?
    Ambassador Negroponte. Well, the reports that we've had is 
that there have been many instances of mistreatment, but, as 
far as locations and the particulars of these instances, I 
would have to get that back to you for the record.

    [Ambassador Negroponte's response follows:]

    In an April 10 report, the Congressional-Executive Commission on 
China cited an official Chinese report stating that over 4,400 persons 
had either surrendered voluntarily to authorities for engaging in 
``beating, smashing, looting, and burning'' during riots, or had been 
detained on suspicion of engaging in such activities. Many of the 
individuals who surrendered voluntarily were subsequently released by 
authorities; however, Tibetan exile groups estimate that about 3,000 
remain in custody. We have repeatedly asked for unfettered access to 
the Tibet Autonomous Region (TAR) and other Tibetan areas of China so 
that, among other things, U.S. diplomats could observe judicial 
proceedings against Tibetans charged in connection with recent events 
in Tibetan areas. Since the Chinese Government has denied such 
requests, we have not been able to independently confirm these numbers.
    As was widely reported in the international press last week, the 
Lhasa Intermediate People's Court has issued sentences ranging from 
three years to life in prison to 30 Tibetans for their alleged 
participation in violent acts during the protests. We are concerned 
about reports that these individuals were not afforded basic 
protections of due process. We were particularly disturbed that 
criminal defense lawyers who volunteered to represent the detainees 
were denied permission to do so.
    Through our bilateral channels, the United States has raised, 
repeatedly and at the highest levels, our serious concerns regarding 
the status and treatment of those detained and arrested for their 
alleged participation in the protests. President Bush and Secretary 
Rice have spoken to their Chinese counterparts to urge restraint and 
the release of protesters who expressed their views peacefully. 
Ambassador Clark T. Randt at our Embassy in Beijing has raised the 
issue repeatedly with high-level officials in the Chinese Government. 
Officers from our Embassy and our consulate General in Chengdu have 
repeatedly pressed Chinese officials at all levels for information 
regarding detainees, for unfettered access to the TAR and other 
affected areas, and for information on individual cases. to date, we 
have not received a positive response to our requests.
    We have called on the Chinese Government to ensure that all legal 
and administrative proceeding against persons alleged to have 
participated in violent acts during the recent protest throughout 
Tibetan areas of China are conducted in a manner that is both 
transparent and consistent with Chinese law and international human 
rights norms. We will continue to raise these concerns with our Chinese 
interlocutors, including as part of our upcoming bilateral human rights 
dialogue with China.


    Senator Feingold. Is it something we're working on?
    Ambassador Negroponte. It certainly is, and it's certainly 
a concern that we raise.
    Senator Feingold. And what----
    Ambassador Negroponte. But with limited access.
    Senator Feingold. Yes.
    Ambassador Negroponte [continuing]. I think it becomes a 
bit of a problem, and it's one of the reasons we would like to 
be able to have direct access to the Tibetan Autonomous Region 
for our people.
    Senator Feingold. Well, I'd--if--after this, if you could 
tell me what, specifically, we're doing to try to----
    Ambassador Negroponte. Right.
    Senator Feingold [continuing]. Get that done, I'd 
appreciate it.
    I thank you for your testimony.
    Thank the Chair.
    Senator Boxer. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Madam Chairlady.
    And, Mr. Secretary, it's good to see you again.
    Ambassador Negroponte. Thank you.
    Senator Menendez [continuing]. I have a great respect for 
you, been happy to have supported your nomination. We've worked 
on several things. But, I must say, when the Chair talked about 
your diplomatic ability to answer, it is being fulfilled richly 
today.
    I appreciate that you've said a lot, but I haven't heard 
very much, and maybe that's the way it's going to be for the 
rest of the hearing. But, let me just ask you, what--I think 
Senator Murkowski was trying to get at this--what are the other 
policy options? If there are none, there are none. Let us know. 
But, what are the other policy options, what are the other 
levers, beyond this quiet diplomacy that is going on, that can 
be pursued, and that should be pursued? Because, I have to be 
honest with you, several decades after this quiet diplomacy 
that has been going on through various administrations, 
Democrat and Republicans alike, it seems to me that what we 
have is a string--a history of human rights violations, forced 
abortions, prison-camp labor, child labor, Tibetan ethnic 
cleansing, the exiling of the Dalai Lama, a support for a 
Sudanese Government that continues to pursue genocide in the 
Darfur region of the Sudan, a huge trade deficit that fuels the 
Chinese military industrial complex, and a country that largely 
owns our debt and constricts, I think, sometimes, some of our 
policy pursuits. So, from my perspective, this quiet 
engagement, this is the record, at least one perspective of the 
record, so give us some policy options here, if there are any, 
beyond this quiet diplomacy.
    Ambassador Negroponte. I think I was fairly forthright with 
the chairman when she asked me, ``Are these efforts that we're 
making, thus far, having any effect with respect to the 
situation in Tibet?'' and I said I didn't think they had any 
particular effect, as yet, although I would like to hope that 
that situation can improve.
    You asked me what other levers do we have, what else can we 
do. As I said, I think the dilemma is that whenever one looks 
at using, or the possibility of using, various kinds of levers 
of influence, one has to do that in the context of, first of 
all, whether one thinks it would be effective with respect to 
the particular situation at hand, and the other is, one has to 
look at it in the context of the overall relationship.
    One encouraging piece of news, Senator, is that the Chinese 
Government has agreed to resume a human rights dialogue, 
bilateral human rights dialogue with us, which was suspended 
more than a year ago, and that we had been asking them to 
resume. And they have finally agreed to do that. They did that 
in the last several weeks. And we will be scheduling such a 
meeting in the month of May.
    Senator Menendez. Well, we're glad to hear we're going to 
resume a dialogue that was suspended by the Chinese. That's 
good. But, let me get to something more concrete.
    The reality is that we talk about the Olympics, which, in 
my mind, is the premier moment. And I agree the Olympics should 
not be boycotted, but there is a difference between boycotting 
the Olympics, which means not going to it, and having the 
President of the United States not go to the opening ceremony, 
which I think is a powerful message to the Chinese, but falls 
far short--our athletes will be able to go, the President may 
go to other events after that. But, the world will be watching 
at the opening, and it seems to me that the Olympic fundamental 
principles of Olympism, which are incorporated in the Olympic 
Charter, says the following, ``The goal of Olympism is to play 
sport at the service of the harmonious development of man, with 
the view to promoting a peaceful society concerned with the 
preservation of human dignity.'' And it further goes on to say, 
as part of the charter's fundamental principles, ``Any form of 
discrimination with regard to a country or a person on grounds 
of race, religions, politics, gender, otherwise is incompatible 
with belonging to the Olympic movement.'' Why not stand with 
the fundamental principles of Olympian--of Olympism and the 
Olympic Charter?
    Ambassador Negroponte. Well, I mean, obviously, we 
subscribe to those principles.
    Senator Menendez. And why not, then, go to the opening 
ceremony, as a commitment to those principles?
    Ambassador Negroponte. No, I understand your question. What 
I would say in reply is that the President has been invited to 
attend the Olympics in Beijing, he has said he would attend, 
and he has not made any change to those plans. But, as far as 
the situation in Tibet is concerned, there's going to be an 
issue after the Olympics, as well.
    Senator Menendez. Well, I agree, but one of your major 
levers will have been lost, and you haven't described any 
levers to me, before, that have seemed to produce any great 
success.
    Let me, finally, ask you--in 2007, Congress appropriated 
over $4 million for programs in Tibet. And as the ranking--as 
the chairperson of the subcommittee on all of our foreign 
assistance, I'm interested--it included public health, 
education, sustainable development, environmental conservation, 
preserving cultural traditions, and protecting human rights. It 
requires that United States representatives to international 
financial institutions support projects in Tibet, only if they 
do not encourage the migration and settlement of non-Tibetans 
into Tibet or the transfer of Tibetan-owned properties. How 
effective have these programs been in achieving their goals? 
And what further measures can Congress take to--in terms of 
this type of foreign assistance--to achieve the efforts that we 
want in Tibet?
    Ambassador Negroponte. Apparently, Senator, since 1997, the 
United States Government has provided approximately $25 million 
in assistance to support ethnic Tibetan communities in China. 
These programs began as exchange programs through the old 
United States Information Agency, and have now expanded into 
community development programs managed by USAID. We also 
provide support to Tibetan-language broadcasting to China by 
Radio Free Asia and the Voice of America, and apparently we are 
planning to increase that level of broadcasting by about 30 
percent, and we're also providing humanitarian assistance to 
newly arrived Tibetan refugees in Nepal and India, in 
cooperation with the U.N. High Commissioner for Refugees.
    I think these are important programs, particularly, the 
broadcasting. I think the concern that we are able to show for 
the plight of the Tibetans through those broadcasts is 
important. But, clearly, none of these measures are as 
important as the fundamental improvement that could take place 
if there were a real, meaningful dialogue between the Chinese 
authorities and the people of Tibet.
    Senator Menendez. Thank you, Madam Chair.
    Senator Boxer. Thanks.
    I'm going to give everyone an extra 5 minutes for a second 
round.
    And I will start off by saying, I think what you're sensing 
here is a bit of frustration that, you know, there doesn't seem 
to be an action agenda here. There seems to be goodwill and 
caring and compassion, but there is frustration----
    I thought you left, Senator, but I will--I will finish my 
sentence and then--no, I'm going to yield to you.
    So, that's the context in which I'm going to ask my second 
round. So, you can think about that.
    And now I'll call on--no, no, Senator, please. You have a 
7-minute round. Yes.
    Senator Cardin. Thank you, Madam Chair. I was in the outer 
room with an appointment. I apologize for that. And I apologize 
for the disruption.
    Secretary Negroponte, you know from our prior discussions I 
have the utmost confidence in your diplomatic skills and your 
service to our country, but I must tell you, I disagree with 
the strategies that this administration and previous 
administrations have used in regards to China.
    We were told that if we engaged China, we will be more 
successful in the policies that we are trying to implement. So, 
we engaged China on trade, and they don't enforce our 
intellectual property rights. They subsidize, they manipulate 
currency, and they get all the advantages of the U.S. market. 
We have a huge deficit today with China as a result of it. We 
are told that dialogue will bring about change. And it hasn't 
brought about change.
    We're then told that, by dialogue, we can change the human 
rights records of that country. That was one of the main 
reasons, one of the main justifications given for normalizing 
trade relations with China. We find that the press is not free, 
the rights of dissent are not there. We are told that dialogue 
will make a difference, and it hasn't.
    Now, in Tibet, we're told, once again, that dialogue is the 
right course. In the meantime, the Chinese Government, as you 
point out, is manipulating the press to the point that the 
public within China supports many of the oppressive policies 
that the Chinese Government is using. This makes it even more 
difficult for us to see the types of changes in China that we 
would like to see.
    So, I must tell you, I have a hard time understanding this 
administration's policy as it relates to China. I want to be at 
the table with China. I want the dialogue to continue with 
China. I don't want to cut off relations with China. But, I 
think China today feels that they can do pretty much whatever 
they want to, that they have more leverage against us than we 
have against them. Therefore, the likelihood of them changing 
their course because of pressure put on by our country is 
minimal, because they don't believe we'll do anything.
    Now, tell me where I'm wrong. Because I hope I am wrong. I 
must tell you, I am deeply concerned about the passive policies 
of this country for many years, predating this administration, 
as it relates to our relationship with China. Today, I think 
we're paying a heavy price, not just in the human rights 
violation, which is against our principles, but on 
international trade and many other fronts where China has not 
been helpful as a friend of the United States.
    Ambassador Negroponte. I would say this, Senator. I think 
it's a much more mixed picture than the one that you paint. I 
think that engagement with China is a long-term proposition. If 
you look at the economic side, for example, our exports to 
China now are starting to grow at a very rapid rate. And I know 
we have a deficit, but our exports went up to $65 billion last 
year, up 18 percent from the previous year.
    Senator Cardin. May I just challenge you on that issue? 
Because, of course, the trade imbalance has only grown since we 
have engaged China in normal trade relations, and the 
manipulation of China's currency is still extreme. Even though 
we've seen a change in the United States values, the Chinese 
practice of holding their currency to ours has prevented a fair 
exchange that all economists say should take place between 
their currency and ours.
    Ambassador Negroponte. Well, the renminbi, the Chinese 
currency, is now under seven renminbi to the dollar, which is 
the first time since 1994. So, there has been an appreciation. 
It's appreciated about 18 percent since July 2005, when they 
abandoned their currency. But, all I'm trying to say is, this 
is a multifaceted, very broad relationship. I lead our dialogue 
with China, the so-called ``senior dialogue'' with my 
counterpart, and we talk about global issues, we talk about 
security on the Korean Peninsula. China is very important to 
the whole issue of the Six-Party Talks on North Korea. We talk 
about Darfur, where they're sending an engineering battalion, 
and they have, I think, moderated their position with respect 
to the Sudan. And we work with them on such intractable issues 
as the question of Iran and its nuclear program.
    So, it's a much more mixed picture, and I don't think it's 
quite so categorical as you suggested.
    Senator Cardin. I would certainly agree with you that it is 
a complicated arrangement. I'm not sure there's so much of a 
mixed message, but clearly on human rights and clearly on 
economic issues, we have not accomplished what was anticipated 
when we normalized relations with China. At that time we were 
told that if we could only communicate with China, if we could 
only bring them into the major powers in discussing 
responsibility and what it means to become a major power, that 
we would see dramatic changes occur. Yes, we've seen dramatic 
changes occur in China. They're a lot more competitive, and 
they are unfairly penetrating our market, but we haven't seen 
the type of responsible conduct that was at least part of the 
deal.
    I remember, when we normalized trade with China, we set up 
a commission that was supposed to look at human rights issues. 
That commission hasn't been very active. And certainly, as we 
were told at the time, we'd have to put teeth into it because 
having that information and putting a spotlight on it wouldn't 
be enough. Well, we put a spotlight on a lot of things, we talk 
a lot, and I appreciate the fact that the President met with 
the Dalai Lama. I think that was a very positive move, a very 
positive move. And we are putting a spotlight on this issue. 
And the international press has been pretty clear about it. 
But, we have to be stronger. We're stronger with our closer 
allies than we are sometimes with those countries that we're 
just timid about, and I just think it's wrong.
    So, I would just urge us all to be more aggressive in 
making it clear to China that it's wrong for the government in 
power to act as oppressively as they did in Tibet. It was 
wrong. They can't justify it under any circumstances. There has 
to be a price to pay internationally when that type of conduct 
goes without correction.
    Thank you, Mr. Secretary.
    Senator Boxer. Thank you very much.
    So, we're going to have 5 minutes more, whoever would like 
to.
    And I think, again, what I was saying is that there is a 
sense of frustration on both sides of the aisle. It seems every 
time we get to a point, you know, again, we feel your 
compassion and concern, and I believe it's real, but China's 
important. China's important. Of course China's important. I 
voted to have normalized trade relations with China, even 
though I had a lot of concerns, because I don't want to isolate 
China, but, at the same time, when you welcome China into the 
world, and we're their biggest customer, and the good things 
that they're getting because of our customers, you've got to be 
honest here, and you can't be timid, as the good Senator from 
Maryland said.
    So, you know, I'm going to--just going to go through a few 
ideas with you, because what I'd like to see out of this 
administration is, you know, a six-point plan, one of them 
being that we're going to make opening a consulate in Lhasa our 
No. 1 priority of the new offices we want to open up. And that 
would be a good signal. No. 1. We're reviewing it, we're moving 
it up on the list to No. 1. I think that would be good.
    No. 2, a strong statement by the President that, since he's 
going to China, he will go to the Tibet region. I think that's 
very important.
    Three--and this--I will ask you this question, because I 
don't know the answer on this one--because our European friends 
are pretty strong on this--Germany, France, the United 
Kingdom--are you talking with them about this? Are you working 
on some kind of a plan where we could all work together on 
approaching China? Are you already doing this?
    Ambassador Negroponte. There was a meeting of the Human 
Rights Council in Geneva recently, and we worked with our 
European friends on that issue.
    Senator Boxer. In what way did you work on the issue? What 
did you say we should do together?
    Ambassador Negroponte. Well, no, what I'm saying is that 
there was an expression of concern at that Council about what 
the Chinese are doing in Tibet, and we worked with our European 
friends on the statements that were made there. But, in terms 
of some kind of a concerted policy, I'm not aware that we have 
any----
    Senator Boxer. OK.
    Ambassador Negroponte [continuing]. Such initiative 
underway at the moment.
    Senator Boxer. OK. Well, that's something I think we should 
consider, because unity gives strength. I mean, that gives more 
oomph to what we're trying to do.
    Is the State Department insisting that there be U.S. 
diplomats at the trials of the Tibetans, those 1,000 people 
that we think are going to have a trial?
    Ambassador Negroponte. Well, we want----
    Senator Boxer [continuing]. May 1?
    Ambassador Negroponte. We want the maximum access possible, 
and, quite frankly, Madam Chairman, this was one of the first 
issues that I raised with the Ambassador of China when he came 
in to see me on this Tibet issue very early on, is, we really 
want access for our people, and as soon as possible. And I 
think it's----
    Senator Boxer. Has that been done?
    Ambassador Negroponte [continuing]. Something we should 
continue to insist upon----
    Senator Boxer. OK.
    Ambassador Negroponte [continuing]. And we have not been 
given adequate access.
    Senator Boxer. Right.
    Ambassador Negroponte. And we would like----
    Senator Boxer. So, you are insisting----
    Ambassador Negroponte. Yes.
    Senator Boxer [continuing]. That there be U.S. diplomats at 
the trials and U.S. diplomats, journalists, and humanitarian 
missions be allowed into the Tibetan region. Are you insisting 
verbally, or are you insisting in writing, or is it back-
channel?
    Ambassador Negroponte. Well, no, this was in conversations 
that I had with the Ambassador of China when he came in to call 
on me officially at the Department of State. I didn't say 
access specifically to the trials, I said access to Tibet.
    Senator Boxer. Are you aware that the U.N. is trying to get 
special rapporteurs on torture, extrajudicial killings, 
religious freedom, and the High Commissioner on Human Rights 
into the country--into the Tibetan region, rather?
    Ambassador Negroponte. I wasn't specifically aware of it, 
but I'm not surprised, and I think that would be good idea.
    Senator Boxer. All right. Well, let me just say--I mean, I 
think, just from the things that I've suggested--Senator 
Murkowski, Senator Menendez, Senator Cardin--I mean, I'm 
hoping--and what I'm going to do at the end of all this is just 
send you a letter about, you know, what an action plan----
    Ambassador Negroponte. Right.
    Senator Boxer [continuing]. Might look like, and maybe you 
could let us know. Because, I'll tell you something, the days 
are going forward, the trials are coming, the Olympics are 
coming, the torch is going around the world, people are upset, 
there's violence, and so on, the Dalai Lama says he doesn't 
want, you know, a separate country, the Chinese says he does, 
and this thing is getting dangerous. And so, again, I just want 
you to know--and I will call on my colleagues to complete this 
round--how much I appreciate your coming here today. I think 
it's important that you did. And we appreciate it, but we hope 
that you will be working with us as we formulate an action plan 
on this, so that it's not just, ``We're trying. We're upset, 
but China's important.'' You know, I get all that. But, we need 
to have an action plan, and I don't think anything that any of 
us here have suggested is, you know, that far out of 
commonsense thought. So, will you work with us as we move 
forward?
    Ambassador Negroponte. Thank you for that, and we look 
forward to receiving your letter.
    Senator Boxer. That'd be great. And hopefully we can do a 
joint letter across the aisle.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chair. I didn't have a 
final question, but I appreciate your suggestions, Madam 
Chairman, in terms of action items. I think it is important to 
know that, as we all leave this hearing, that there is going to 
be more than just the same attempt at dialogue.
    One quick question for you, Mr. Secretary, in terms of the 
financial institutions that may be at play. What role does the 
World Bank play in Tibet? And--I'm asking the question, because 
we've talked about--well, perhaps, sanctions as they relate to 
the Olympics are not the way to go, but we know that, in 
dealing with other issues, sometimes the way to get attention 
is through the financial route. Can you enlighten me a little 
bit, in terms of the financial----
    Ambassador Negroponte. Right.
    Senator Murdowski [continuing]. Institutions that----
    Ambassador Negroponte. Yes.
    Senator Murdowski [continuing]. Might be at play here?
    Ambassador Negroponte. Well, to the best of my knowledge, 
they have no role in Tibet.
    Senator Murkowski. OK.
    Ambassador Negroponte [continuing]. And, of course, China 
itself, at the moment, is in quite a favorable----
    Senator Murkowski. Right.
    Ambassador Negroponte [continuing]. Financial position, 
with 1.6 trillion, or almost 1.7 trillion, in reserves. And, in 
fact, they've invested quite a bit in the economic 
modernization of Tibet. I think that's actually been one of the 
controversial issues for the Tibetan residents there, because 
there's been an issue of the migration, the inward migration of 
Han Chinese into the Tibet Autonomous Region. So, the impact of 
modernization, I think, is one of the issues for the people of 
Tibet. But, no, there is no role, that I'm aware of, of the 
World Bank in Tibet.
    Senator Murkowski. Madam Chair, recognizing that we do have 
two other panels, I will reserve my time. Thank you.
    Senator Boxer. Thank you so much.
    Senator Menendez.
    Senator Menendez. Thank you, Madam Chair. Just a couple of 
quick questions.
    Mr. Secretary, in the fiscal year 2009 budget, the 
President requested cuts to Radio Free Asia and Voice of 
America. These programs include Tibetan broadcasts, and we have 
been told that cuts in all broadcasts to the PRC are still 
planned. So, if we're going to increase Tibetan----
    Ambassador Negroponte. We are.
    Senator Menendez [continuing]. Increases--well, then, I'm--
assume the President's going to change, or seek a further 
request from the Congress than what he submitted, because right 
now what we have is cuts, not improvements.
    Ambassador Negroponte. The current plan is to increase 
those broadcasts through the end of the fiscal year, and we'll 
obviously have to address the issue you raise, because that 
budget was sent up, I believe, prior to the recent situation 
with respect to Tibet. But, we certainly don't want to cut our 
broadcasts.
    Senator Menendez. So, your increase was only because of the 
incidents that took place, is that----
    Ambassador Negroponte. Excuse me?
    Senator Menendez. Your increase that you talked about is 
only because of the incidents----
    Ambassador Negroponte. I believe so, yes.
    Senator Menendez. Oh.
    With reference to the consulate question, isn't it true 
that the Chinese wants consulates here in the United States?
    Ambassador Negroponte. Yes.
    Senator Menendez. Isn't it true that there's reciprocity of 
agreement--we have to agree to those, as well?
    Ambassador Negroponte. Yes.
    Senator Menendez. Is it true, then, if you were to say that 
Lhasa--``If you don't get Lhasa, you don't get another 
consulate here in the United States,'' that that would be 
leverage for you?
    Ambassador Negroponte. That would be leverage. We have on 
our list six or seven consulates that we want in China, so in 
fact, I think we've asked for more in China than they have 
asked of us. But, in any case, I take the suggestion that 
Chairman Boxer put forward, which is that we, perhaps, ought to 
bump up the priority that we assign to Lhasa on our list of 
consulates that we would like to seek in China.
    Senator Menendez. Finally, the International Olympic 
Committee's evaluation of China's 2001 Olympic bid documented 
that, ``It was confirmed to the Commission that there will be 
no restrictions on media reporting and movement of journalists, 
up to and including''--up to and including--``the Olympic 
Games.'' And, at that time, the Secretary General of the 
Beijing Bid Committee said, ``I think we will give the media 
complete freedom to report, when they come to China. We have 
made our guarantees in our bid documents. All the world's media 
will be welcome to come to China.'' So, what steps are we 
taking to ensure that China abides by its commitment to the IOC 
to allow media access, including in Tibet?
    Ambassador Negroponte. Well, clearly that--what they've 
done with respect to Tibet is not consistent with that 
commitment, and I think we must continue to call that to their 
attention.
    Senator Menendez. We have IOC representatives, don't we, 
from the United States? Are we raising our voices, in this 
respect?
    Ambassador Negroponte. Well, and we also have our own 
voice.
    Senator Menendez. No, but this is the committee that 
ultimately oversees the bidding process and the fulfillment of 
the games. It seems to me that we have another point of 
leverage.
    I just don't think--just to echo the chairlady's comments, 
which I join in, totally--that the different points of leverage 
that are available to the United States Government are not 
being as proactively pursued as they can be. And I would hope 
that the message you take away from today's hearing, and for 
others who couldn't be here today, is that we are looking for a 
much more proactive policy.
    Thank you, Madam Chair.
    Senator Boxer. Thank you.
    Senator Cardin.
    Senator Cardin. I'll yield back my time so we can get to 
the next panel.
    Senator Boxer. OK.
    Well, thank you very much, Mr. Secretary. We----
    Ambassador Negroponte. Thank you, Madam Chair.
    Senator Boxer [continuing]. Do appreciate all the time. 
And, of course, you're welcome to stay or leave. I know you 
have a----
    Ambassador Negroponte. Thank you.
    Senator Boxer [continuing]. Hectic schedule.
    Ambassador Negroponte. Appreciate it.
    Senator Boxer. And we are honored to call up our second 
panel: Mr. Richard Gere, president of the Gere Foundation, and 
chairman of the board, International Campaign for Tibet; and 
Mr. Lodi Gyari, Special Envoy of His Holiness the Dalai Lama, 
in Washington, DC.
    Mr. Secretary, I see that--the cameras are here for you, 
right? [Laughter.]
    Is that--they're all following you. Or for me, for that 
matter. [Laughter.]
    [Pause.]
    Senator Boxer. What we're going to do is--Mr. Richard Gere 
is going to make a statement, and then he's going to introduce 
Mr. Gyari, and then we'll hear from Mr. Gyari.
    So, Mr. Gere, whenever you're ready, we're ready for you. 
And we thank you very much for being here.

STATEMENT OF RICHARD GERE, PRESIDENT, THE GERE FOUNDATION, AND 
CHAIRMAN OF THE BOARD, INTERNATIONAL CAMPAIGN FOR TIBET (ICT), 
                          NEW YORK, NY

    Mr. Gere. I don't know much about this media thing of 
microphones and this, but----
    [Laughter.]
    Mr. Gere. Look, I'm just so pleased and--on many levels--
that this meeting has taken place, but also the incredible 
education that you all have on this subject. It's something 
that touches me very deeply.
    Madam Chairman, Senator Murkowski, and other members of the 
subcommittee, thank you for inviting me here today to speak on 
the crisis of Tibet.
    And, as we know, this is an incredibly vast subject, which 
is not just Tibet, but takes into account the entire area of 
Asia, and now the entire world. So, I'm going to confine myself 
to a smaller area, and--in a brief statement--and turn this 
over, actually, to my friend.
    I'm here as chairman of the board of directors of the 
International Campaign for Tibet, which advocates on behalf of 
the rights of Tibetans and a negotiated solution on the future 
of Tibet. I am here also to introduce and support my long-time 
friend and colleague Lodi Gyaltsen Gyari, who is the lead 
negotiator with the Chinese Government in his role as Special 
Envoy to His Holiness the Dalai Lama.
    Madam Chairman, it was only 6 months ago that we gathered 
here across the street in the Capitol Rotunda to witness a most 
moving and remarkable historic event. It was the awarding of a 
Congressional Gold Medal to His Holiness the Dalai Lama. It 
really was an amazing thing. For me, deeply emotional. I was 
humbled, and I was very honored to watch His Holiness receive 
from the United States Congress its highest recognition for his 
lifelong devotion to peace, compassion, and total nonviolence, 
and for speaking the truth about the condition of his people.
    Not only did the ceremony touch me spiritually, it made me 
deeply proud to be an American. I was there with the President 
of the United States, Members of Congress, both parties 
standing side by side with the Dalai Lama, in unified support 
of his efforts on behalf of the Tibetan people. By becoming the 
first American President to appear publicly with His Holiness, 
President Bush sent a clear signal of his commitment to put the 
United States on the side of human rights and religious freedom 
and to preserve the cultural and linguistic uniqueness of the 
Tibetan people.
    On March 10, a vortex opened up over Tibet, the unleashing 
of countless layers of frustration and resentment. The unrest 
inside Tibet, which continues to this day, did not start 
because of the Beijing Olympics, it was not instigated by the 
Dalai Lama, no matter what the Chinese authorities have so 
offensively claimed; the spontaneous demonstrations and unrest 
which were the direct result of nearly six decades of brutal 
repression and calculated efforts to control religious practice 
and attack the very foundations of Tibetan religious, cultural, 
and ethnic identity. The cultural resolution is still alive and 
very well inside of Tibet.
    I've been especially disturbed by the news that some monks 
have resorted to suicide after being forced to denounce His 
Holiness the Dalai Lama as part of the oppressive patriotic 
education campaign now underway in monasteries and schools 
throughout Tibet.
    There's a particular story, that moves me, of a monk named 
Lekstok, from Goman Monastery. Lekstok was an elderly man. He 
was 75 years old. After the demonstrations started, they were 
confined to their monastery. He left with two students to get 
some food and supplies. The Chinese security forces came upon 
them, beat them, threw them in jail, continued to beat and 
torture them for several days, released them. Lekstok and his 
two students went back to the monastery, and, very soon after, 
he wrote a note saying that he could no longer take the 
repression, and he killed himself.
    Please understand how deeply this offense is of denouncing 
His Holiness, what that feels like to a monk or a nun, and how 
much suicide violates one of the cardinal precepts of the 
Buddhist faith. You can sense how deeply depressed and tortured 
these people are.
    There's actually another person here I'd like to introduce. 
Is Ngawang Sangdrol here? Yeah, this is a success story, in 
many ways. I want to make sure I have the information here.
    Now, Ngawang is a former Tibetan nun and a political 
prisoner. She was 13 years old when she was arrested, and she 
was detained and tortured for political activities. She'd go on 
to spend 11 years as a political prisoner in the infamous 
Drapchi prison in Lhasa. Her crime was to publicly call for 
freedom in Tibet and declare her love for the Dalai Lama. 
Thirteen years.
    The efforts of the current Bush administration and the U.S. 
Congress secured Ngawang Sangdrol's early release from prison 
and allowed her to travel to the United States. Since then, she 
has served as a tireless advocate for the Tibetan people, 
traveling the world to share her firsthand account of 
repression in Tibet.
    We did have some effect, in this case; we did get her out 
of prison. And we can do these things, if we put our minds to 
it, and that really is the issue that we're all speaking to. If 
we put our minds to it.
    Since Buddhism took hold in Tibet, 1,300 years ago, 
Tibetans have worked single-pointedly to rid themselves of 
anger and violence and hatred, turning these into the noble 
expressions of love, compassion, and forgiveness. This is their 
cultural legacy. But, they have been left with so little 
opportunity and have experienced so much brutality for so many 
years, they have reached the tipping point of despair and 
hopelessness. But, right now the whole world is watching.
    At the Congressional Gold Medal Ceremony, the President 
expressed his solidarity for the plight of the Tibetan people 
and embraced the Nobel Peace Prize Laureate and his cause of 
basic freedoms and human decency in Tibet. Yet, today, when 
Tibetans are in their greatest moment of need, we have heard 
only a passing comment from the President of the United States.
    I was pleased to read the piece from Undersecretary 
Dobriansky that was published in the Washington Post on Monday, 
and it was a good article, following some previous very public 
fumbling on the issue, which was referred to before, when the 
National Security Advisor, Stephen Hadley, commented on the 
crisis, mentioning Nepal repeatedly, and, for some reason, 
didn't say the word ``Tibet.'' I was beginning to wonder how we 
can trust this administration to do the right thing when they 
can't even find Tibet, apparently, on the map.
    I'm still waiting for the President to throw some weight 
behind this issue and become publicly engaged. We're looking 
for effective policies that yield results for those who are 
suffering now. We're in a tug-of-war between freedom and 
repression; literally, survival and extinction. The cycle will 
not end until we see a negotiated solution grounded in genuine 
harmony and trust between the Chinese and Tibetan peoples.
    Let's not be fooled by the Communist Party's concept of a 
``harmonious society,'' which is the catch phrase now that's 
going around. We now know that this is a very hollow slogan. 
Genuine peace and stability do not emerge from the barrel of a 
gun. Genuine harmony between people is based on the ability to 
speak the truth. And this requires dialogue and goodwill, both 
of which, if we listen to the rhetoric coming out of Beijing, 
are in short supply among the Chinese leadership.
    We must avoid further alienating the Chinese people, who 
themselves have been victimized and are governed by the same 
leaders that are authorizing the crackdown in Tibet. It's 
desperately important that we ensure that our Chinese brothers 
and sisters have access to the truth, and we must hope and pray 
that they will take advantage of the opportunity.
    Of course we applaud the Chinese for their extraordinary 
economic success and the sense of national achievement. It was 
interesting, when I was in San Francisco for the demonstrations 
there, with the passing of the torch. I became aware of this 
really interesting subtlety between ethnic pride and national 
pride. And what I was sensing there was a--of course there's a 
sense of ``Chineseness,'' and especially ``Han Chineseness'' in 
this moment. It's not necessarily for the Communist Party or 
for any governmental system, but, of course, a natural sense of 
being Chinese and being proud of that. And we have to be aware 
of this distinction.
    At the same time, we must not fail to take pride in the 
principles that have made our own nation great, are enshrined 
in the universal declaration of human rights and hold in their 
realization the real promise of world peace. The United States 
and like-minded nations must do whatever we can to redirect 
Chinese ambition onto the path of democracy and human rights 
for everyone.
    Paradoxically, the present crisis can be seen as an opening 
to create a framework for the Chinese leadership themselves to 
initiate a meaningful results-based dialogue with the Dalai 
Lama. Surely, Chinese leaders, despite what they say, must 
realize that His Holiness, with his unwavering commitment to 
peace, nonviolence, and an autonomous Tibet within the 
structure of the PRC, is critical to the lasting stability of 
the region.
    For Tibetans and for the larger world, only the Dalai Lama 
can serve as a foundation of legitimacy for Chinese rule. Key 
to moving forward is developing a better understanding of the 
internal political dynamics within the Chinese leadership 
concerning Tibet. Are there differences of opinion? Are there 
voices of sanity there?
    One such light in the darkness is a recent resolution 
signed by over 100 very, very courageous Chinese intellectuals 
in the mainland demanding a rethinking of China's Tibet policy, 
calling for an immediate end to the demonization of Tibetans. 
And from that I'll quote, ``We hold that we must eliminate 
animosity and bring about national reconciliation, not continue 
to increase divisions between nationalities. A country that 
wishes to avoid the partition of its territory must first avoid 
divisions among its nationalities. Therefore, we appeal to the 
leaders of our country to hold direct dialogue with the Dalai 
Lama. We hope that the Chinese and Tibetan people would do away 
with the misunderstandings between them, develop their 
interactions with each other, and achieve unity. Government 
departments, as much as popular organizations and religious 
figures, should make great efforts toward this goal.''
    We don't know what's happened to them, by the way, but I'm 
curious.
    This gives us tremendous wonder as to how and why Chinese 
leaders continue to make such wrong-handed policy statements 
and decisions that run so counter to their national goals. Are 
there Communist leaders brave enough to envision a positive 
resolution in Tibet that will enhance China internally and 
internationally as a nation of peace, prosperity, and genuine 
harmony?
    The one-party system has created a political culture that 
does not allow for unwelcome news to move up the chain. Field 
reports of growing hopelessness, anger, and resentment inside 
of Tibet--in the cities and villages, and among the nomads--
have had little chance of making it to the desks of top 
officials. So, it's not hard to imagine that the extent of the 
uprisings and the international reaction have caught them off 
guard. We know we are witnessing a complete breakdown of 
China's Tibet policy. And I suspect leaders in Beijing are 
coming to realize this, too.
    If we learn more about the internal Chinese debate, we can 
identify opportunities for moving forward on a dialogue that 
benefits both China and Tibet as their interests are definitely 
not mutually exclusive. Key to this is President Hu Jintao 
himself. This is clearly a defining moment for him--tests his 
leadership, offers him a distinct opportunity, possibly for 
greatness. He was the party chief in the Tibet Autonomous 
Region during the 1989 crackdown. His rise to power was 
propelled by the hardline approach he held at that time. Some 
have suggested that Hu, with his background, is well positioned 
for a Nixon-goes-to-China moment on the Tibet question. Let's 
hope that he has both the courage and the stature to heed the 
call.
    American leaders and other heads of state must urge him to 
seize the critical moment and remind him of the great lost 
opportunity for China and its--and his--emerging legacy if he 
does not.
    Now, more than ever, instead of blaming the Dalai Lama, 
Beijing must reflect on the failures of its strategy for Tibet. 
It's in his own long-term interest to recognize what led to the 
current instability and to engage, for the first time, to the 
genuine grievances of the Tibetan people, and embrace the Dalai 
Lama as a partner in earnest dialogue. I urge Congress to 
vigorously promote policies toward this goal before it's too 
late.
    Finally, I want to express my deep appreciation for the 
political and programmatic support that the U.S. Congress has 
provided for the Tibetan people. It was suggested before, and 
it has been wonderful. It's not always been easy to keep the 
financing and support there, but it has been there, and I thank 
you all for that. This support, from humanitarian assistance to 
refugees to Voice of America, Radio Free Asia, Tibetan Language 
Broadcasts, it's all been crucial. It's created a nation of 
people who still believe in the United States of America as a 
beacon of freedom. And, in a sometimes very dark world, that's 
incredibly important to them. Of this support, the American 
people can be very, very proud.
    Over the years, it's been my pleasure to get to know many 
Members of Congress and United States Government officials who 
work to advance Tibetan issues. Some are long retired, like 
Senator Claiborne Pell. Others, like Senator Moynihan and my 
dear friend Congressman Tom Lantos, are gone from us now. Julia 
Taft, who held the position of Special Coordinator for Tibetan 
Issues of the State Department, has also recently passed away. 
Just days before her passing, the International Campaign for 
Tibet awarded Julia its Light of Truth Award, which is very 
important to us, for her significant contributions to the 
public understanding of Tibet and its people. I know Julia also 
had many friends in the Congress who supported and respected 
her work to promote the best humanitarian engagement possible 
by these United States with those less fortunate around the 
world.
    Thank you very much.


    [The prepared statement of Mr. Gere follows:]

Prepared Statement of Richard Gere, President, the Gere Foundation and 
 Chairman of the Board of Directors, International Campaign for Tibet, 
                              New York, NY

    Madam Chairman, Senator Murkowski, other members of the 
subcommittee, thank you for inviting me here today to speak on the 
crisis in Tibet.
    I am here as the chairman of the Board of Directors of the 
International Campaign for Tibet, which advocates on behalf of the 
rights of Tibetans and a negotiated solution on the future of Tibet. I 
am also here to introduce and support my longtime friend and colleague, 
Lodi Gyaltsen Gyari, who serves as lead negotiator with the Chinese 
Government in his role as Special Envoy of His Holiness the Dalai Lama.
    Madam Chairman, it was only 6 months ago that we gathered here, 
across the street in the Capitol Rotunda, to witness a most-moving and 
remarkable historic event--the awarding of the Congressional Gold Medal 
to His Holiness the Dalai Lama. I was honored and humbled to watch as 
His Holiness received from the United States Congress its highest 
recognition for his lifelong devotion to peace, compassion, and 
nonviolence, and for speaking the truth about the condition of his 
people.
    Not only did the ceremony touch me spiritually, it made me deeply 
proud to be an American and to see the President and Members of 
Congress, of both parties, standing side by side with the Dalai Lama in 
unified support of his efforts on behalf of the Tibetan people. By 
becoming the first American President to appear publicly with His 
Holiness, President Bush sent a clear signal of his commitment to put 
the United States on the side of human rights and religious freedom, 
and to preserve the cultural and linguistic uniqueness of the Tibetan 
people.
    On March 10, a vortex opened up over Tibet: The unleashing of 
countless layers of frustration and resentment. The unrest inside 
Tibet, which continues to this day, did not start because of the 
Beijing Olympics. It was not instigated by the Dalai Lama, no matter 
what the Chinese authorities have so offensively claimed.
    The spontaneous demonstrations and unrest were the direct result of 
nearly six decades of brutal repression and calculated efforts to 
control religious practice and attack the very foundations of the 
Tibetan religious, cultural, and ethnic identity.
    The Cultural Revolution is still alive and well inside Tibet.
    Since Buddhism took hold in Tibet 1,300 years ago, Tibetans have 
worked single pointedly to rid themselves of anger, violence, and 
hatred turning these into the noble expressions of love, compassion, 
and forgiveness. This is their cultural legacy. But they have been left 
with so little opportunity and have experienced such brutality for so 
many years that they have reached the tipping point of despair and 
hopelessness.
    Now the whole world is watching. At the Congressional Gold Medal 
ceremony, the President expressed his solidarity for the plight of the 
Tibetan people and embraced the Nobel Peace Prize Laureate and his 
cause of basic freedoms and human decency in Tibet. Yet, today, when 
Tibetans are in their greatest moment of need, we have heard only a 
passing comment from the President.
    I was pleased to read the piece that Under Secretary Dobriansky had 
published in the paper on Monday. Following some previous very public 
fumbling of this issue, even from the President's top National Security 
advisor (Two Sundays ago on ABC's ``This Week,'' National Security 
Advisor Steven Hadley commented on the crisis by erroneously mentioning 
``Nepal'' seven times, never once uttering the word ``Tibet.'' \1\), I 
was beginning to wonder how we can trust this administration to do the 
right thing when they cannot even find Tibet on a map.
---------------------------------------------------------------------------
    \1\ This Week with George Stephanopolous, ABC, April 13, 2008.
---------------------------------------------------------------------------
    I still am waiting for the President to throw some weight behind 
this issue and become publicly engaged. We are looking for effective 
policies that yield results for those who are suffering now.
    We are in a tug of war between freedom and repression, survival, 
and extinction. The cycle will not end until we see a negotiated 
solution grounded in genuine harmony and trust between the Chinese and 
Tibetan peoples.
    Let us not be fooled by the Communist Party's concept of a 
``harmonious society.'' We know now that this is a hollow slogan. 
Genuine peace and stability do not emerge from the barrel of a gun. 
Genuine harmony between people is based on the ability to speak the 
truth. This requires dialogue and goodwill, both of which--if we listen 
to the rhetoric coming out of Beijing--are in short supply among the 
Chinese leadership.
    We must avoid further alienating the Chinese people, who themselves 
have been victimized and are governed by the same leaders that are 
authorizing the crackdown in Tibet. It is desperately important that we 
ensure that our Chinese brothers and sisters have access to the truth, 
and we must hope and pray they will take advantage of the opportunity. 
Of course, we applaud the Chinese for their extraordinary economic 
success and sense of national achievement. At the same time, we must 
not fail to take pride in the principles that have made our own Nation 
great, are enshrined in Universal Declaration of Human Rights, and hold 
in their realization the real promise of world peace. The United States 
and like-minded nations must do whatever we can to redirect Chinese 
ambition onto the path of democracy and human rights.
    Paradoxically, the present crisis can be seen as an opening to 
create a framework for the Chinese leadership themselves to initiate a 
meaningful, results-based dialogue with the Dalai Lama. Surely China's 
leaders, despite what they say, must realize that His Holiness, with 
his unwavering commitment to peace, nonviolence, and an autonomous 
Tibet within the structure of the PRC, is critical to the lasting 
stability of the region. For Tibetans and for the larger world, only 
the Dalai Lama can serve as a foundation of legitimacy for Chinese 
rule.
    Key to moving forward is developing a better understanding of the 
internal political dynamics within the Chinese leadership concerning 
Tibet. Are there differences of opinion? Are there voices of sanity? 
One such light in the darkness is the recent resolution signed by over 
100 very courageous Chinese intellectuals demanding a rethinking of 
China's Tibet policy and calling for an immediate end to the demonizing 
of Tibetans and I quote, ``We hold that we must eliminate animosity and 
bring about national reconciliation, not continue to increase divisions 
between nationalities. A country that wishes to avoid the partition of 
its territory must first avoid divisions among its nationalities. 
Therefore, we appeal to the leaders of our country to hold direct 
dialogue with the Dalai Lama. We hope that the Chinese and Tibetan 
people will do away with the misunderstandings between them, develop 
their interactions with each other, and achieve unity. Government 
departments as much as popular organizations and religious figures 
should make great efforts toward this goal.''
    This gives us tremendous wonder as to how and why, Chinese leaders 
continue to make such wrong-headed policy decisions that run so counter 
to their national goals. Are there Communist leaders brave enough to 
envision a positive resolution in Tibet that will enhance China 
internally and internationally as a nation of peace, prosperity, and 
genuine harmony?
    The one-party system has created a political culture that does not 
allow for unwelcome news to move up the chain. Field reports of growing 
hopelessness, anger, and resentment inside Tibet, in the cities, in the 
villages, among the nomads, have had little chance of making it to the 
desks of top officials.
    So it's not hard to imagine that the extent of the uprisings, and 
the international reaction, have caught them way off guard. We know we 
are witnessing a complete breakdown of China's Tibet policy. I suspect 
that leaders in Beijing are coming to realize this too.
    If we can learn more about the internal Chinese debate, we can 
identify opportunities for moving forward on a dialogue that benefits 
both China and Tibet as their interests are definitely not mutually 
exclusive.
    President Hu Jintao is key to this. This is a defining moment that 
tests his leadership and offers him a distinct opportunity for 
greatness. He was Party Chief in the Tibetan Autonomous Region during 
the 1989 crackdown. His rise to power was propelled by the hard-line 
approach he held at that time. Some have suggested that Hu, with this 
background, is well-positioned for a ``Nixon goes to China'' moment on 
the Tibet question. Let's hope that he has both the courage and the 
stature to heed the call. American leaders and other heads of state 
must urge him to seize the critical moment, and remind him of the great 
lost opportunity for China and its- and his- emerging legacy if he does 
not.
    Now, more than ever, instead of blaming the Dalai Lama, Beijing 
must reflect on the failures of its strategy for Tibet. It is in its 
own long-term interest to recognize what has led to the current 
instability, and to engage for the first time with the genuine 
grievances of the Tibetan people and embrace the Dalai Lama as a 
partner in earnest dialogue. I urge Congress to vigorously promote 
policies toward this goal before it's too late.
    Finally, I want to express deep appreciation for the political and 
programmatic support that the U.S. Congress has provided to the Tibetan 
people. This support--from humanitarian assistance to refugees to Voice 
of America and Radio Free Asia Tibetan language broadcasts--has been 
crucial and has created a nation of people who still believe in the 
United States of America as a beacon of freedom in a sometimes very 
dark world. Of this support, the American people can be very proud.
    Over the years, it has been my pleasure to get to know many Members 
of Congress and U.S. Government officials who work to advance Tibetan 
issues. Some are long retired, like Senator Claiborne Pell, others like 
Senator Moynihan, are gone from us. Julia Taft, who held the position 
of Special Coordinator for Tibetan Issues at the State Department has 
also recently passed away. Just days before her passing, the 
International Campaign for Tibet awarded Julia its Light of Truth Award 
for her significant contributions to the public understanding of Tibet 
and its people. I know Julia also had many friends in the Congress who 
supported and respected her work to promote the best humanitarian 
engagement possible by these United States with those less fortunate 
around the world.

    Senator Boxer. Thank you so much, Mr. Gere.
    You could stay at the table, if you wish, or you could take 
your other seat, however you feel more comfortable, because I 
know that we're going to hear from Lodi Gyari.
    I just want to say to you, just for myself, that I've 
watched your work through the years for so many important 
causes. This one just has been extraordinary. And I just really 
do--and I say this to you, and I've said it to others, because 
I am from California, and I so support those from my State who 
give up their privacy. It's not--I mean, we kid around about 
the cameras. They're here, because you're here. And this could 
be annoying to you. The fact is, you're willing to give up your 
privacy for such a noble and honorable cause. And for me, it's 
really helpful, and for those of us here, because there's just 
so much we can do to get the cameras here. And, believe me, we 
can't compete with this. So, we are absolutely, just thrilled 
and delighted that you care so much that you would come here 
today and share your thoughts.
    And, by the way, you really did give us a very important, I 
think, picture into this whole issue that I don't think we had 
before. So----
    Mr. Gere. Well, thank you very much, Senator.
    I--just as a closing comment, this Tibet issue is not a 
small issue. There are 6 million Tibetans in the TAR and 
Tibetan regions that are now outside of the TAR, as defined by 
China since their invasion. This is an issue much larger than 
Tibet, and it has to do with--it speaks to who we are as a 
people----
    Senator Boxer. I agree.
    Mr. Gere [continuing]. Who we want to be. As a nation, what 
do we really stand for? The values that are inherent in the 
Tibetan experiment, which was an extraordinary experiment, like 
the United States of America--they decided to make something 
new, something extraordinary that was really based on love and 
compassion and understanding, and institutions that would 
create more people of great love and great compassion and great 
sense of brotherhood and sisterhood. And that's why we have to 
stand by them. We're speaking to ourselves as we speak for the 
Tibetans.
    Thank you very much.
    Senator Boxer. Well, it does make us feel more noble when 
we take these issues on.
    And we're very honored to have the Special Envoy of His 
Holiness the Dalai Lama, Mr. Lodi Gyari.
    And is 10 minutes enough time for you, sir? Are you--is 
that all right?
    Mr. Gyari. That's good.
    Senator Boxer. OK. Very good.

  STATEMENT OF LODI GYARI, SPECIAL ENVOY OF HIS HOLINESS THE 
                   DALAI LAMA, WASHINGTON, DC

    Mr. Gyari. Thank you very much, Madam Chairperson and other 
members of the committee.
    I'm really very grateful for this very timely hearing that 
you have called for. And, in fact, I would rather, before I 
start my presentation, make some remarks or observations of the 
very important, I think, exchange that you had with the Deputy 
Secretary of State. And I wanted to, at the very beginning, 
urge the Madam Chairperson and others that you follow up and 
work closely with the administration in the manner that you 
have suggested, because I do agree with some of your 
colleagues--Senator Menendez, for example. While we are very 
grateful to the administration, and particularly to the 
Congress, for your sympathy and for your understanding, but 
there has to be a little more than expression of sympathy, 
which, obviously, we very much appreciate. So, I think the 
number of, you know, issues that you have listed, I think, is a 
really very good starting point, because I think the Chinese 
Government--I do not, you know, claim to know so much, but I 
have dealt with them. You know, they are very, you know, 
serious, sensible people, and they respect people when they are 
also very serious and they mean, you know, what you say. So, I 
think you need to send a very clear and precise message.
    And I think you did ask very good questions about leverage. 
And, you know, it was one of the most, I think, constructive 
hearings--I'm not saying that the other hearings that I have 
been to have not been constructive, but today I saw a real 
serious effort.
    I can also clearly see, Madam Chair, you have mentioned, 
that on both sides there's a, really, kind of feeling of, you 
know, frustration. So--but, I think there was good beginning 
here today. And on the list of things that you've suggested, 
maybe also--and you did allude to that--I think, very close 
cooperation between the Western democracies, because this time 
we are also very gratified to see that the voices that you have 
across Atlantic--the Germans, the Brits, the--particularly the 
French and the Australians--everyone has, you know, really come 
out. So, I think one of your--you know, on the list of things 
that you wanted to suggest, if you could also very strongly 
encourage the administration that they work together with other 
world democracies.
    I would also like to urge the Congress, too, to reach out 
to your counterparts, you know, across, with the European 
Parliament, for example, which has taken a great leadership 
together with you on this issue, because this is, I think--it's 
unfortunate, this tragic situation that is happening in Tibet. 
In a strange way, you know, it gives the people of Tibet new 
opportunity. So, I felt, you know, so much, you know, moved.
    And also, I want, at the very beginning, really emphasize 
on that, because I want something concrete to come out of, you 
know, this hearing, as is the intention of the chair and of the 
ranking member.
    I know you wanted, Madam Chair, that I come here today and 
share with you, first of all, you know, what, in our view, has 
led to the present situation, and what is the present 
situation, and what could be the future prospects.
    I will not mince words. The present situation, the tragic 
situation, is the result of misrule, mistreatment, policies of 
Chinese Government, period. I think everyone knows that. It is 
beyond any doubt. In fact, the ultra- leftist elements of the 
Communist Party took total control over the Tibet policy way 
back since 1957, and ever since--ever since, with regard to 
Tibet, the policy is conducted by the extreme leftist wing of 
the party. And this is the result of that--you know, that 
policy.
    And, as my friend and, you know, colleague, you know, 
Richard, mentioned, I also hope that President Hu Jintao and 
the present leaders will take this opportunity to really clean 
house, other than making, you know, baseless charges against 
His Holiness, which no one, you know, no one believes. What do 
other, you know, to investigate--first of all, to reexamine 
their own policy that has not worked, and then hold people 
responsible that has misled them for the last many decades. 
Misled them. And today, the Chinese leaders in Beijing feel 
embarrassed, feel unhappy. That anger or that unhappiness 
should not be directed towards His Holiness, but towards those 
within the system that has led them into this present 
situation.
    At the same time, you know, while, you know, holding the 
Chinese fully responsible, if I may say so, candidly, I think 
the international community also has some responsibility. I 
will be very frank. Because I think, while there were 
expressions of sympathy for us periodically, sometimes, you 
know, very visible manner, but, to be very candid, you know, 
Tibet was not given the attention that it deserved. This, 
unfortunately, you know, Madam Chairperson, is--I mean, is not 
only with regard to Tibet. The only tragic situation happens 
when only, you know, many human lives have been lost, then it 
seems that the governments and the world really does wake up. 
Quite often, very late for the situation. But, I just hope 
that, with regards to Tibet, it is not too late.
    So, you know, while expressing my gratitude, I also, you 
know, want to be very candid to say that the world has not done 
enough. And I do hope that, you know, this is the beginning of 
a real serious, not just lip sympathy for the Tibetan people.
    But, I also wanted to say today that the fact that you are 
holding this hearing, Madam Chairperson, you are sending a very 
powerful message. This is something that I think many people 
don't understand. In fact, I know that there are also few--
fortunately few people who feel sometimes all, you know, the 
Western nations kind of lip sympathy for Tibet or holding of 
hearings sends the wrong message, it incites--it, in fact, 
makes the Tibetan people feel some sense of hope and they then 
do some stupid things.
    I wanted to tell you, it is totally the opposite. The fact 
that, in spite of so much suffering, that the Tibetan people 
have been able to maintain patience and not to resort to 
violence--No. 1, is the influence of the leader, His Holiness 
the Dalai Lama. And the second, the credit really can go to 
people like yourselves, who from time to time did send a 
message to Tibetan people, said that, ``You are not totally 
forgotten. You are not totally forgotten.'' And that is the 
reason why, in spite of so much suffering, that there has been 
certain degree of stability on the plateau.
    But, you are beginning to witness the Tibetan people--the 
Tibetan people are beginning to really, sometimes, you know, 
feel, you know, that they have been ignored for too long, and 
the symptoms are, you know, becoming very clear.
    I also wanted to--I know--I mean, many of you know, but 
sometimes I think people take it kind of very casually, you 
know, when we talk about nonviolence. Unfortunately, even among 
my own community, there are some people who think, ``Well, 
nonviolence is something very passive, you know, something 
that, you know, make only, sometimes, weak people can, you 
know, important.'' I will tell you that, in fact, I think, to 
struggle nonviolently is the most difficult struggle. Most 
difficult. You just can't say that, ``Oh, I have become 
nonviolent,'' as if it is kind of declaration, and then, from 
that day on, you are nonviolent. No. Every moment, it is a new 
dedication that we have to make to remain nonviolent. And we 
can only do it, again, because of the leader that we have.
    I will just share with you how, a few years back, as the 
leader of the Tibetan Delegation, I had the opportunity even to 
go to my birthplace. If you see some of the footages of my 
visit, you see me, kind of, you know, with a smile, trying to 
be nice. But, I will tell you today of the pain that I was 
going through. I was visiting a monastery that I grew up, 
because I was a young monk. Seventy percent of it is total 
ruins--70 percent of it in total ruins now. You know, a place 
that I grew up, you know, as a child, total ruins. And I 
actually visited--which my colleagues also, you know, do not 
know--I also visited the site where I know my grandmother was 
tortured to death. I also visited the site where my elder 
brother was starved to death. In spite of that, because of the 
leadership that His Holiness provide, because of the commitment 
that we have made to nonviolence, you see me all smiles with my 
Chinese counterparts.
    I'm sharing this with you because you understand and 
appreciate more the part of struggle that His Holiness has led 
us. So, please help us stay on this course, because this is not 
only important for us, this is also important for China.
    I'm sorry for being emotional. I was trying to be here, you 
know, all, you know, business and to making you a presentation.
    Senator Boxer. No, it's very appropriate. Please.
    Mr. Gyari. But, let me also now, again, briefly touch--and 
I know that my colleague has done it, and also, in fact, you 
know, Deputy Secretary has also touched on that the situation 
on the ground is very explosive. Very explosive. There have 
been demonstrations in over 90 places, covering almost about 50 
or nearly 60 counties, both in the autonomous region, but 
outside of it. So, this clearly shows the danger, the intensity 
of the situation. And our biggest concern right now, Madam 
Chairperson, is not really the dialogue. I mean, dialogue is 
important. I assure you that we are absolutely committed, 
because that is the only way out. But right now His Holiness is 
so much saddened with the situation, his biggest priority right 
now is: What can he do immediately for those who have been 
detained--what will happen to them? Those who have been injured 
and are not having the possibility to get any medical help, 
because many of them are hurt--we know from the experience of 
1987 and 1988, many would be dying right now because the choice 
for them is either to go to some kind of Chinese medical 
clinic, which may, first of all, not even accept them, but, if 
they do, that means immediate arrest and imprisonment. So, 
there are many who are literally dying without any medical 
help.
    I mean, I have talked, myself, with a person who's a 
relative, was one of those who got shot in Lhasa. What did they 
do? They were from the eastern part of Tibet, from outside of 
Tibet Autonomous Region. They knew that if they went to the 
hospital or the clinic, they would immediately be arrested. 
Fortunately, for them, they had a vehicle. So, what they did 
is, they loaded this person who was injured and drove--left 
Lhasa, hoping that if they can somehow manage to reach their 
own native area, they may then be, through their personal 
connections, be able to provide some medical help. What 
happens? Because of excessive bleeding, this person dies on the 
way. I mean, this is just one example, because I know this as a 
firsthand information. And there are many such things 
happening.
    So, at the moment, our biggest concern is the plight of 
those arrested, those being tortured, and the very tense 
situation that they have created throughout Tibet, so much so 
that His Holiness, even in this hour of crisis, you know, had 
the wisdom to personally write to Chinese President on the 19th 
of March, just a week after the major demonstrations that 
erupted in Lhasa--and I had the honor of forwarding that 
through my channels--offering--His Holiness said that, you 
know, ``Look, you know, we must all, at the moment, try to walk 
together so that this tragic situation could be--could be 
brought under control.''
    Senator Boxer. Mr. Gyari, I'm going to ask you to sum it up 
in a minute, because we do have some questions.
    Mr. Gyari. Yes. Certainly, yes.
    Senator Boxer. And we have a third----
    Mr. Gyari. Yes.
    Senator Boxer [continuing]. Panel. So----
    Mr. Gyari. So, anyway, I just wanted to let you know that, 
you know, our biggest concern right now is the tragic 
situation. This is why we want you to help. And you have----
    Senator Boxer. Yes.
    Mr. Gyari [continuing]. Also already alluded to that.
    And then, with regards to, you know, the other factor is, 
we are also very much concerned, because Chinese, you see, now 
as a result of the present situation, have started, you know, a 
massive kind of policy of discrimination against Tibetans. Now, 
this is fact that you see--you can verify, the State Department 
can verify--now every Tibetan, even if you're a party member, 
if you are identified as a Tibetan nationality, you are only, 
now, allowed to walk, check into certain exclusive hotels 
throughout China. You cannot just--if you are Tibetan, mind 
you, you--not a Lama, not a nun--if you are Tibetan--you can be 
party member, but if your identity card says that you are a 
Tibetan nationality, you cannot even check into any hotel or 
any accommodation, as all other Chinese citizens can do. And if 
your identity card says that you are Tibetan nationality, you 
cannot get a passport easily; on the other hand, the Chinese at 
this--given passports very easily, because they would like the 
economic advantage to be taken.
    So, what I'm saying is that there is very dangerous 
discrimination by the Chinese Government to the Tibetans as 
people, and this is really leading into tremendous animosity 
between the two peoples. This is of great concern.
    Now, with regard to the future of dialogue, I will just 
summarize. As I said earlier----
    Senator Boxer. Mr. Gyari, we're going to have to finish 
your testimony in 1 minute, because I have to leave this room 
at a certain time, and I need to have time to----
    Mr. Gyari. Certainly, yes. So, anyway, then let me just 
summarize----
    Senator Boxer. So, I'm going to give you 1 minute, and then 
we're going to ask you questions.
    Mr. Gyari. Yes.
    Senator Boxer. OK.
    Mr. Gyari. We are fully committed to the policy of 
engagement. You know, that I can assure you. Obviously, you 
see, when next round happens, it cannot be business as usual, 
because of the tragic situation. What we need is a clear 
assurance from the Chinese Government that they're willing to 
discuss the matter seriously.
    So, I think that will be, you see, you know, the--some of 
the main issues that I want to share. My written testimony is 
on the record, which I hope, you know, you will study carefully 
and reflect upon.
    Thank you very much.


    [The prepared statement of Mr. Gyari follows:]

          Prepared Statement of Lodi Gyari, Special Envoy of 
              His Holiness the Dalai Lama, Washington, DC

    Madame Chairwoman and members of the committee, at this critical 
time for Tibet, I wish to express my appreciation to the Congress for 
its unwavering support for His Holiness the Dalai Lama and his efforts 
to find a peaceful solution for Tibet. I thank you for convening this 
timely hearing and Deputy Secretary Negroponte for his appearance. What 
he says on Tibet today will certainly be heard in Beijing.
    I would like to thank my dear friend, Richard Gere, for his 
introduction and, of course, for the years of hard work and splendid 
achievement he has produced with the International Campaign for Tibet 
and for His Holiness and the Tibetan people.
    You have invited me to present His Holiness the Dalai Lama's views 
on the current crisis and his plans for achieving a comprehensive and 
lasting solution to the Tibet question. In brief, the current crisis is 
a manifestation of decades of Chinese misrule and mistreatment of the 
Tibetan people, influenced by ultra-leftist elements of the Party that 
took control of Tibetan policy as early as 1957, and made worse by 
decades of misleading information produced by local authorities for the 
central government.
    Among the most disturbing developments in Tibet is the segregation 
of Tibetans from Chinese society. Tibetans are now instructed to stay 
or return to their registered place of residence; they are prohibited 
from accessing services, like hotels, unless specifically designated 
for their use; and they are routinely harassed and detained simply 
because they are Tibetan. Chinese servers in many restaurants are 
choosing not to serve Tibetans.
    The Chinese Government, which, as a tenet of its economic growth 
strategy has encouraged travel for its citizens, restricts travel for 
Tibetans. If you are a Tibetan nationality, you are required to attain 
several clearances before you are issued a passport. In some Tibetan 
areas, such as my own Nyarong County in Kanze Tibetan Autonomous 
Prefecture, Tibetans are not even allowed to leave the country. This 
and existing social and economic disparities are reducing Tibetans to 
second-class status, giving every appearance of Tibet being a back-
water colony and not a harmonious part of a multiethnic China that 
Chinese leaders are promising.
    Professor Phuntsok Wangyal, founder in 1942 of the Tibetan 
Communist Party, who became one of the first victims of the 
ultraleftists, wrote to Chairman Mao and Premier Zhou--in his own blood 
from his prison cell on a copy of the Communist Party Manifesto--that 
``fascism, and Great Han Chauvinism are the main irreconcilable enemies 
of all the Tibetan people.'' That advice is as relevant today as it was 
in the early days of the People's Republic of China.
    While the Chinese Government readily accuses His Holiness the Dalai 
Lama of ``splittist activities,'' ironically, it is they that have 
adopted deeply divisive strategies to address the question of Tibet.
    The Tibetan people are grateful for the global outpouring of 
sympathy for what is occurring in Tibet, but we must also acknowledge 
that the international community has for too long lacked sufficient 
will to push for a resolution of the Tibet question. It is unfortunate 
that the world seems to wake up to a situation only when it already has 
become a tragedy, with much loss of life and devastation on the ground. 
The Chinese leadership may not like the fact that what they have 
considered to be an ``internal affair'' is now an international issue. 
Nonetheless, it is a situation of their own making, for which they must 
bear full responsibility. They can no longer pretend that there are not 
fundamental problems in their policies in Tibet.
    On Monday, the Washington Post ran an editorial, ``The Way Forward 
in Tibet,'' written by Under Secretary Paula Dobriansky, the Special 
Coordinator for Tibetan Issues. Its publication coincided with the 
Under Secretary's meeting with His Holiness in Ann Arbor, Michigan, 
where he was giving teachings. We appreciate this comprehensive public 
statement on the part of the Bush administration, which included that 
``the best way for China's leaders to address Tibetan concerns is to 
engage in dialogue with the Dalai Lama.'' We have heard this same 
message from Deputy Secretary Negroponte.
    We have been seized with the situation in Tibet since March 10 when 
the demands of a group of monks for religious freedom and the release 
of others who had been jailed for celebrating the honor bestowed on His 
Holiness last fall--the Congressional Gold Medal--sparked an outbreak 
of anger and aggression against the Chinese presence in Lhasa and, 
tragically, the loss of many lives.
    Demonstrations have continued and spread throughout Tibet--and the 
number of the Tibetan dead, missing, and detained continues to rise. 
Chinese forces continue to conduct acts of retaliation and intimidation 
against the Tibetan people, including the most contemptible attempts at 
reeducation, even of school children by Communist Party work teams. A 
climate of tension and fear exists that the Tibetans have not 
experienced since the time of the Cultural Revolution.

                           SITUATION IN TIBET

    Individually and collectively, people around the world have 
denounced China's actions and attempted to intervene. Hundreds of 
Chinese intellectuals have boldly signed an open letter condemning 
Beijing's response to the crisis. The U.N. High Commissioner for Human 
Rights requested--and was denied--urgent permission to visit Tibet. The 
European Parliament and the U.S. Congress moved quickly to pass 
resolutions calling on the Chinese Government to show restraint and to 
engage directly with His Holiness to find solutions for the underlying 
causes of the problems in Tibet. Beijing has heard this same message 
from heads of state and eminent persons around the globe.
    We continue to ask that the international community to press for 
immediate remedies for the suffering of the Tibetan people, the most 
critical of which is access by journalists, diplomats, and humanitarian 
missions to Tibet.
    We would like to recognize the important contribution of the 
Tibetan language broadcast services at Voice of America and Radio Free 
Asia, and Voice of Tibet, which have served as a critical line of 
communication in and out of Tibet.
    In brief, with little official information available, we can report 
that:

  <bullet> Chinese Government authorities have acknowledged the 
        surrender or detention of some 4,000 Tibetans.
  <bullet> We know of numerous deaths as a result of Chinese forces 
        firing into crowds of demonstrators in several areas of Tibet.
  <bullet> Many monasteries have been sealed off and under lockdown 
        across Tibet, and monks within subjected to many deprivations 
        and punishments.
  <bullet> Police have been carrying out house-to-house night raids in 
        Lhasa, in villages and nomad encampments, dragging away many 
        Tibetans.
  <bullet> Hundreds of Tibetans have been loaded onto the new train in 
        Lhasa and taken away to prisons in China.
  <bullet> Large numbers of Chinese forces have been sent to all the 
        Tibetan areas where demonstrations have occurred. In the Amdo 
        and Kham areas of eastern Tibet, demonstrations have been 
        widespread and large-scale, and retaliation has been brutal.
  <bullet> One or more instances of protest have been reported in at 
        least 52 county-level locations, as well as Chengdu (the 
        capital of Sichuan), Lanzhou (the capital of Gansu) and 
        Beijing.
  <bullet> More than 98 protests have been counted so far, and they are 
        still happening. In only one of those protests, as far as we 
        are aware, has violence been used against Chinese civilians.
  <bullet> In recent weeks a new wave of protests has begun, in 
        response to stringent patriotic education campaigns in 
        monasteries and requirements to denounce the Dalai Lama. The 
        actions of the authorities are doing nothing to create 
        stability--they are provoking further resentment, despair, and 
        unrest. For instance, in a raid on Labrang Monastery on April 
        15, Chinese forces smashed altars in monks' cells and burned 
        images of the Dalai Lama that some monks had kept at great 
        risk. At Tongkor Monastery in Kardze, photographs of His 
        Holiness were trampled upon. When monks and laypeople protested 
        about the actions of the work team and called for His Holiness 
        to return to Tibet, troops fired into the crowd, killing 15 
        Tibetans including monks, a young woman, and a teenage boy.
  <bullet> In the Tibet Autonomous Region alone, authorities have 
        announced that they will try some 1,000 Tibetans by May 1. 
        China has virtually closed the TAR. With the exception of two 
        show-tours, no journalists or diplomats have secured permission 
        to visit the TAR since the crisis began, so these trials will 
        be carried out absent outside observers.

    We urgently ask the international community--especially those 
governments involved in rule-of-law programs with China--to insist that 
the legal cases of Tibetans detained as a result of the current crisis 
are considered according to international standards of due process, and 
that political prisoners be treated humanely.
    We welcomed the reminder yesterday in a State Department statement 
that ``the intentional withholding of necessary medical treatment for 
political reasons is a serious violation of human rights.''

             CHINESE MISSTEPS AND TIBETAN EFFORTS TO ENGAGE

    It is difficult to watch events unfolding in Tibet. I have long 
warned that such a crisis could be provoked by Chinese policies such as 
authorizing the Communist Party to recognize reincarnate lamas--or by 
unique actions Beijing has taken--such as the abduction of the young 
Panchen Lama. Friends of China knowledgeable about Tibet have cautioned 
that moving progressively harshly to constrain the Tibetan Buddhist 
identity while creating circumstances that facilitate the movement of 
hundreds of thousands of Chinese up and onto the Tibetan plateau would 
heighten tensions.
    Beijing must now reverse course. Chinese leaders must look to the 
underlying causes of the problems, conduct whatever housekeeping may be 
necessary in their personnel and policies, and reach out to His 
Holiness and the Tibetan people in the spirit of inclusion and mutual 
benefit so that together we can achieve peace in Tibet.
    The situation in Tibet has of course created conditions that make 
our engagement with Beijing difficult. Throughout the period of crisis, 
I have been using existing channels of communication with Chinese 
officials to convey our urgent concerns. What I have been hearing back 
is nothing but the usual rhetoric, very similar to what Chinese 
Government spokespeople are saying publicly. On March 19, His Holiness, 
himself, sent a letter to Chinese President Hu Jintao. We continue to 
make efforts to begin a discussion on a peaceful way forward. As a 
first step, His Holiness has offered to send a delegation to Tibet that 
we believe could ease anxiety among Tibetans and contribute to the 
restoration of calm. To say, as some media have reported, that we are 
in discussions with the Chinese Government is unfortunately an 
overstatement of fact.
    From the onset of this crisis, we have expressed our concern to 
Beijing about whipping up nationalist sentiment against the Tibetan 
people and His Holiness, even blaming the so-called ``Dalai clique'' 
for inciting the demonstrations. Such charges are baseless.
    We are asking for an international impartial investigation of the 
true causes which have led to the recent crisis.
    His Holiness has been deeply concerned by the deep division that 
has been created in the minds of the Chinese and Tibetan people within 
a period of several weeks, and will likely endure for the foreseeable 
future. His Holiness is deeply saddened by this, particularly because 
he has made so much effort to outreach to the Chinese people on a 
personal level and because he knows that real stability depends on 
tolerance, mutual understanding, and peaceful coexistence.
    On March 28, His Holiness issued a public appeal to the Chinese 
people, reflective of his many initiatives to connect with them. Many 
of these initiatives have been warmly received. We have increasingly 
seen among many Chinese in and outside China, a new fascination with 
the Tibetan culture, an emerging consideration for the protection of 
Tibet's fragile environment, and also a kind of renaissance of Tibetan 
Buddhism in China. These developments had been very encouraging.
    If possible, I would like to request that the full text of His 
Holiness the Dalai Lama's Appeal to the Chinese People be included as 
part of the record of today's hearing.

                         OVERALL ISSUE OF TIBET

    On the overall issue of Tibet, the position of His Holiness remains 
unchanged in key areas. First, his commitment to the Middle Way is 
unwavering. He is not seeking independence for Tibet but, rather, 
genuine, meaningful autonomy for the Tibetan people within the People's 
Republic of China. Chinese law makes considerable commitments to 
regional national autonomy, so there exists already a legitimate 
platform for discussion. However, the prevailing system lacks legal 
assurances that provisions of autonomy are not given by the state on 
the one hand and taken away by the state on the other hand. This is the 
crux of the problem with autonomy and why His Holiness is seeking 
``genuine'' or ``meaningful'' autonomy.
    Second, His Holiness is uncompromising in his commitment to 
nonviolence. This is not just the core principle of the Tibetan 
struggle. It is the message he carries around the world in his public 
teachings. As the spiritual leader of the Tibetan people, it defines 
his very existence. Even at this time, His Holiness believes that the 
principle of nonviolence is so essential to the Tibetan identity that 
he has said repeatedly that he would disassociate himself from a 
Tibetan movement that departs from a nonviolent path.
    Third, His Holiness remains fully committed to a policy of 
engagement with China to resolve the issue of Tibet. It is in this area 
where I have the honor to serve His Holiness at chief negotiator with 
the Chinese Government, a process the Tibetans have been engaged in on 
an on-and-off basis since 1979. After serious efforts by us--and the 
urgings of many in the international community--we were able to 
reestablish a formal dialogue with Beijing in 2002. We have had six 
rounds of dialogue since that time, the most recent in June/July of 
2007. Those discussions have served the purpose of providing the 
opportunity to build relations and convey our positions.
    The Tibetan position entails a single ask--that we are able to 
maintain the distinctive Tibetan identity into the future. Central to 
this ask is the political right of autonomy. According to the Chinese 
Government's own analysis of its law on regional ethnic autonomy, the 
Tibetan people are entitled to the full political right of autonomy; 
full decisionmaking power in economic and social development 
undertakings; freedom to inherit and develop our traditional culture 
and to practice our religious belief and freedom to administer, 
protect, and be the first to utilize our natural resources, and to 
independently develop our educational and cultural undertakings.
    The other central point is that such autonomy must be provided to 
all Tibetans living in contiguous Tibetan areas, an area roughly 
defined by the geography of the Tibetan plateau, governed by a single 
administrative unit under a single unified policy.
    The recent tragic events in Tibet clearly demonstrate that even 
though Tibetans have been divided among different provincial 
administrations, they remain unified by their identity and their 
aspirations. A piecemeal solution for the future of Tibet that takes 
into account only the Tibetans in the TAR would not resolve the Tibet 
problem. This has been tried in the past and has failed.

                             A WAY FORWARD
 
   In the 4th and 5th rounds of our dialogue with the Chinese, we had 
expansive discussions around these issues, and both sides came away 
with a very clear understanding and a sense that we were moving 
forward. However, during the 6th round, we saw a hardening of the 
Chinese position.
    We cannot pretend that if our next round of discussions were held 
now, it would be business as usual given the scale of the crackdown and 
the fact that protests are continuing almost daily. The present 
emergency situation must be resolved before we can really talk about 
the future. However, if both sides are determined to find a solution 
through genuine engagement--and it is my duty today to assure you that 
His Holiness remains fully committed to that effort--then, we will find 
a way. However, the true sentiments of the Tibetan people, evident in 
the current crisis, have given both sides the clear mandate that when 
we next talk, we can waste no time; rather, we must deal with the real 
issues and produce results so that genuine peace is at last restored in 
Tibet.
    Therefore, we ask of those advising both sides to continue with the 
dialogue process that they press the Chinese side to provide assurances 
of their commitment to real and concrete progress.
    We believe that China's way forward in Tibet envisages two possible 
scenarios. The more hopeful scenario is that Chinese leaders realize 
that, in spite of some constructive efforts to improve the lives of the 
Tibetan people, many Tibetans are profoundly unhappy--and some have 
even shown their unhappiness at the cost of their own lives. In this 
scenario, a sensible approach would be for Beijing to commit to 
constructive dialogue with His Holiness or his representatives whereby 
genuine and meaningful autonomy for Tibetans and unity and stability 
for the PRC are assured.
    The second scenario reflects the more rigid Chinese attitude. In 
this scenario the Chinese Government continues to implement repressive 
measures and looks forward to a final solution where Tibet's unique 
identity is subsumed and entirely assimilated into China. We might 
suspect that such a policy--which would include the intensification of 
the anti-Dalai Lama campaign and in-migration of Chinese settlers--
would further develop after the Beijing Olympics in August. In either 
scenario we see a strong role for the international community.
    On the humanitarian side, we are asking that governments engage 
international human rights mechanisms--such as U.N. human rights 
rapporteurs and private NGOs, like the International Committee of the 
Red Cross and Doctors without Borders--in coordinated efforts to press 
the Chinese Government for access to Tibet so that the immediate 
suffering of the Tibetan people can be addressed.
    On the political and diplomatic side, we are respectfully 
requesting of all our international government contacts that they meet 
with Chinese officials in discussions on remedies for the underlying 
issues that have contributed to the current crisis, and urge dialogue.
    We have been encouraged by the active engagement of many countries, 
including the Germans, Australians, British and, particularly, the 
French in this regard. Even, India and Japan, who have sensitive 
relations with China, have felt the need to speak out by calling for 
restraint and dialogue. Just last week, the Japanese Prime Minister 
challenged the Chinese Foreign Minister's attempt to characterize Tibet 
as a domestic issue, saying that China had to ``face the fact that 
Tibet had become an international problem.''
    In stark contrast, the Government of Nepal, which shares a long 
history with Tibet, has behaved in a most reprehensible manner, 
cracking down on Tibetans who live in Nepal and have been protesting in 
solidarity with the brothers and sisters inside Tibet. Nepal is acting 
almost as an extension of the brutal regime on the other side of the 
Himalayas, a reaction that has many Nepalese deeply disturbed and 
ashamed for their government.
    I would like to close my testimony by mentioning the recent passing 
of Julia Taft who served the United States in many capacities, 
including as the second Special Coordinator for Tibetan Issues, 
appointed by Secretary of State Madeleine Albright. Julia was an 
extraordinary friend of Tibet and would have been a powerful advocate 
in this time of crisis.

    Senator Boxer. Thank you, Mr. Gyari.
    I am very touched by your testimony. And I really do 
appreciate the fact that you believe these types of hearings 
can be very helpful.
    You know, many, many years ago, I was involved in the issue 
of human rights in the former Soviet Union, and I was very 
fearful, at first, to shine the light on what was happening, 
because I thought it would lead to more abuse of the people 
there. And I was really taught, by the very people who were 
suffering, that I was wrong, that you must shine the light of 
truth on these matters. And I think that's key. One of the many 
things that I am very concerned about is the fact that the 
Chinese Government keeps saying that the Dalai Lama wants 
independence, and that he fans the flames of hatred among the 
Chinese toward those in the Tibet region.
    And I guess I need to ask you: How can we help on this? I 
mean, one PRC official said, ``The Lhasa incident has once more 
exposed the separatist essence and the hypocrisy and 
deceitfulness of the alleged peace and nonviolence of the Dalai 
Clique.'' And, you know, meanwhile, the Dalai Lama is saying, 
``We need to find a peaceful and mutually beneficial 
solution.'' He has no desire to seek Tibet separation. And yet, 
the PRC puts out these very inflammatory statements.
    And I guess my question--because it worries me--is: Is this 
going to lead to the Chinese people just getting very worked up 
and upset at those from the Tibet region? Do you see this as 
something that is happening now, that they're spreading this 
nontruth about what the Dalai Lama has done, and they're saying 
he's responsible for this--are you worried about----
    Mr. Gere. Oh, yes.
    Senator Boxer [continuing]. The impact? And how can we get 
the truth out?
    Mr. Gyari. We are very much worried. In fact, to cover the 
wrong policies of the Chinese Government, I think the Chinese 
Government is playing a very dangerous game, and, in fact, I 
think it is a very unpatriotic--if I can use that term--of 
making this into almost a ethnic conflict between----
    Senator Boxer. Yes.
    Mr. Gyari [continuing]. The Chinese and Tibetans, which I 
think us unpardonable, because China talks about, you know, 
harmonious society. On the other hand, you see the Chinese 
Government deliberately creating this rift between the Tibetans 
and Chinese.
    Well, I do not know what we can do to--you know, but as far 
as we're concerned--especially, His Holiness, is making so much 
effort in the last few weeks. One of his main focuses has been 
trying to reach out. He's been writing to the Chinese people. 
Tomorrow, he will make exclusive, again, appeal to Chinese 
Buddhists and other, you know, people who believe in the 
religion, explaining to them, asking their help, so that the 
Chinese Government do not create this rift, you know, between 
the peoples, which I think will be, you know, as I said, you 
know, we are very much worried, and, you know--but, you know, 
we are doing what we can, and we certainly also need to help 
here.
    Now, about the--as I said, I think, unfortunate policy of 
Chinese Government, not his Holiness. He made it very clear 
that he is not seeking independence. Even now, under such 
difficult circumstances, he's repeating, every day, you know, 
many times, that he is not seeking independence, that he's 
looking for solution within the framework of the People's 
Republic of China.
    Senator Boxer. Well, let the word go out from this 
committee that we--we're very concerned, and we expressed our 
concern to the Chinese Government, that the way to resolve this 
is through peaceful means and sitting around the table and 
working it out, not by inflaming passions and, you know, 
spreading violence. It would be terrible.
    So, I have one last question for you. It's my 
understanding--am I right on this?--that China has sealed off 
the Friendship Bridge. Is that correct? Is the Friendship 
Bridge still sealed off?
    Mr. Gyari. Yes. Not only that, you know, one of the things 
that really worries us is that China has made the Nepal almost 
an extension of the PRC. You know, not only they have a--but we 
know, or we have information, that the Chinese officials have 
been very, you know, casually crossing over to the Nepal side, 
conducting----
    Senator Boxer. But, is it true that the bridge has been 
sealed off? Because the Associated Press says that it's sealed 
off and that no refugees have arrived at the U.N.-run Tibetan 
Reception Center in Katmandu. Normally 200 to 250 flee Tibet 
each month. So, is--I'm just trying--because, since I'm going 
to come up with this list of six or seven action items, I guess 
I want to know, is that bridge still closed?
    Mr. Gyari. It is closed.
    Senator Boxer [continuing]. As far as you----
    Mr. Gyari. In fact, you know, we were speaking with the 
person--you know, our city has a staff there. There's only, 
now, about three or four people at the Refugee Settlement 
Center, where we normally have several hundred at this time of 
the year.
    Senator Boxer. OK.
    Mr. Gyari. So, the Chinese have sealed up the borders, and 
they are flooding Tibet with armed personnel. So, this is the 
situation.
    Senator Boxer. Very, very, very worrisome.
    Well, I want to thank you so much, sir. You have been a 
very important witness.
    And I'll ask Senator Murkowski to finish up this panel with 
5 minutes or whatever she needs.
    Senator Murkowski. Thank you, Madam Chair.
    Senator Boxer. Seven is fine.
    Senator Murkowski. And thank you, Mr. Gyari. Your testimony 
was very compelling this afternoon. I certainly appreciate your 
words about the difficulty and the struggle to maintain a 
policy of nonviolence. Your very personal stories are really, 
again, very, very compelling.
    I will tell you, listening to the responses from Secretary 
Negroponte, understanding Undersecretary Dobriansky's comments 
that she has made in her op-ed about--a recognition that the 
preconditions, as she terms them--the preconditions for 
dialogue that China has called on, that China has asked for, 
have been met. And I think that they understand that those have 
been met. And yet, they must find other areas where there is 
disagreement so that they don't have to engage in that 
dialogue. And your very specific examples of how, even what 
might be considered a small act, denying a Tibetan citizen the 
opportunity to check into a hotel, for instance, can increase 
the tension--and you used the term ``ethnic conflict'' that is 
being built in China through incidents just such as that; or 
whether it's the issuance of passports--you're treating your 
citizens differently, depending on where they are coming from. 
And if you want to further inflame ethnic conflict, you, kind 
of, build up through smaller incidents like this and hope 
others on the outside don't notice. So, I think the record 
should reflect that we're noticing.
    I wanted to ask you, during the Dalai Lama's recent visit 
to the United States, he had noted that there had been some 
contact at that time between Chinese officials and his 
representatives through some back-channel means shortly after 
the initial protests. Can you elaborate a little bit on what 
these contacts may have been and if, in fact, they have yielded 
anything?
    Mr. Gyari. Thank you very much, Senator.
    First of all, I was very happy to see Paula Dobriansky's 
opinion piece. She and I went together to meet with His 
Holiness that very day. And I think that reflects the policy of 
the present, you know, administration.
    Answering specifically to your question, His Holiness is 
referring to the contact, that I mentioned, with my 
counterparts, as I mentioned earlier, as early as 19th of 
March, you know, just, you know, almost, you know, a week after 
the situation. You know, we got in touch with them. I am in 
touch with them. But, unfortunately, at the present moment what 
is coming through that channel is more rhetoric than anything 
constructive. But, we are mentioning those connections. There 
has been, I think, a little bit exaggerated report in the 
section of the media, as if, you know, these contacts are 
bringing some results. But, I must, you know, disappoint you 
all to say that so far it is bringing no concrete result.
    But, we are mentioning those contacts. We will mention 
those contacts, because we do consider those contacts very 
important.
    Senator Murkowski. Of the action items that Chairman Boxer 
mentioned, whether it is, you know, encouraging President Bush 
to visit Tibet when he is in China for the Olympics, any of the 
other action items that she mentioned, the consulate in Lhasa, 
what would you consider to be the most significant action item 
that we could take?
    Mr. Gyari. Most important, you know, I think, is the one 
that you also have on the top of your list, is U.S. diplomatic 
presence in Lhasa. I think the recent, you know, situation has 
proven beyond doubt that the lack of diplomatic access on the 
plateau is one of the reasons, to be very frank today, even the 
Secretary, you know, was unable to provide you with as much 
information that you wanted, and neither do we have that. So, I 
think, you know, I would say that among the list, you know, all 
of them are very important, but the most important, I would 
say, and besides, as part of your Tibetan Policy Act--in fact, 
I think the administration is obligated to not only act on 
that, but really put it on high priority, because it has been 
there for several years. You know, I really do hope that, as 
one your colleagues had alluded, that with the Chinese, not 
only you said that you want that, but, you know, unless you get 
your consulate in Lhasa, she will not get any consulates, that, 
you know, she would like to have in your country, you know, for 
all kind of economic and other access which China is, you know, 
very much after.
    Senator Murkowski. Thank you. I appreciate that.
    Thank you, Madam Chair.
    Senator Boxer. Senator Murkowski, that was an excellent 
question, and I think what you brought out is that having eyes 
and ears on the ground is so crucial, because there's so much 
disinformation. And it's a dangerous situation, with the 
shutting off of the bridge so you can't even find out what's 
really happening.
    So, I just want to thank you so very much, sir----
    Mr. Gyari. Thank you very much.
    Senator Boxer [continuing]. Mr. Gyari, and we'll----
    Mr. Gyari. Thank you very much.
    Senator Boxer [continuing]. Work closely with you----
    Mr. Gyari. Thank you very much.
    Senator Boxer [continuing]. As we move forward.
    Thank you.
    And now we'd ask our final panel, Mr. Steve Marshall, 
senior advisor, Congressional-Executive Commission on China, 
Dr. Lobsang Sangay, senior fellow, East Asian Legal Studies, to 
come forward.
    [Pause.]
    Senator Boxer. Gentlemen, I understand you've been told 5 
minutes, and we'll give you 6, in case you want to slow down a 
little bit. So, each of you will have 6 minutes, and we'll 
start with Mr. Steve Marshall, senior advisor, Congressional-
Executive Commission on China, Washington, D.C.
    Mr. Marshall, welcome.

  STATEMENT OF STEVE MARSHALL, SENIOR ADVISOR, CONGRESSIONAL-
         EXECUTIVE COMMISSION ON CHINA, WASHINGTON, DC

    Mr. Marshall. Chairman Boxer and members of the committee, 
thank you very much for the opportunity to testify here today 
on the events in the Tibetan areas of China and on the 
prospects for peace.
    My experience on the Tibetan Plateau began in the mid-
1980s, and I've visited many of the areas, townships, and 
monasteries where the protests and crackdowns are taking place. 
I witnessed, at close range, the events in 1989 that led to 
martial law in Lhasa. I know that Tibetans are facing very 
serious consequences.
    The cascade of Tibetan protests began in Lhasa on March 10, 
2008. By the end of March, it had swept across much of the 
ethnic-Tibetan area of China. Except for periods of armed 
conflict between Tibetan and Chinese forces, and periods of 
politically driven social chaos, no Chinese Government has been 
confronted by an upsurge of Tibetan discontent as widely 
dispersed, sustained, and popular since the Chinese Communist 
Party established the People's Republic of China in 1949.
    Chinese public security forces, mainly the People's Armed 
Police, moved swiftly to establish lockdowns in each protest 
site. As of today, the situation in Tibetan protest areas is as 
grim as it is fluid, and it will negatively impact tens of 
thousands of Tibetans. Chinese security forces and government 
authorities are sealing off protest areas, cutting 
communications networks, and confiscating communications 
equipment, including mobile phones and computers. As a result, 
the information flow today is much less now than it was a few 
weeks ago. Unconfirmed reports tell of severe abuse and 
maltreatment to detainees, including inadequate food and water, 
severe overcrowding, and beating. The authorities have 
reportedly transferred substantial numbers of detainees away 
from their areas of residence, often to locations unknown to 
their families.
    Very little information is available about the legal 
process facing thousands of detained Tibetans. Aggressive 
implementation of political indoctrination campaigns is 
following swiftly in the wake of crushed protest. Reports are 
emerging of anger at the new campaigns by monks who refuse to 
comply with official demands to condemn the Dalai Lama. A 
second wave of detentions is taking shape. Authorities compel 
ordinary Tibetans to assembly publicly, denounce the Dalai 
Lama, and state that he was behind the protest and riot 
activity.
    A number of issues led to and result from this crisis. Two 
key factors distinguish the current protest from those of March 
1959 in Lhasa and from the March 1989 protests and rioting that 
led to martial law in Lhasa.
    First, the 2008 protests have spread far beyond Lhasa in 
the Tibet Autonomous Region, and into Tibetan Autonomous 
Prefectures located in Qinghai, Gansu, and Sichuan Provinces.
    Second, the protesters have continued to persevere, even as 
Chinese security forces established and tightened lockdowns. 
The total of official acknowledged detentions is rising 
steeply, but the official figures reflect only the fraction of 
protests that Chinese officials wish for observers to see. The 
actual numbers are far higher.
    Officials have released no information at all about the 
actions of security forces against Tibetan protesters in more 
than 40 of the counties where peaceful protests have reportedly 
taken place.
    The Chinese leadership chose to blame the Dalai Lama for 
the protests and for the resulting pre-Olympics news reporting 
that has been critical of China. At the same time, they chose 
not to acknowledge Tibetan dissatisfaction with policies that 
have not delivered the rights and freedoms nominally protected 
under China's constitution and legal system.
    Are there Tibetans in exile who set out to encourage 
protest activity in the runup to the Olympics? Yes, there are. 
But Chinese officials have provided no evidence at all that 
links the Dalai Lama to such objectives and activities.
    Chinese officials are also blaming the Dalai Lama for 
Tibetan violence during rioting in Lhasa and in other 
locations. They do so by seeking to hold him personally 
accountable for the views of individuals and groups in what 
Chinese authorities call the ``Dalai Clique.''
    Are there Tibetans in exile who acknowledge interest in a 
violent struggle for Tibetan independence and who have 
encouraged destructive action in China during the pre-Olympic 
period? Yes, there are. But the Dalai Lama's actions and his 
public statements and his consistently pacifist counsel to 
Tibetans, wherever they live, place him at odds with violent 
intentions and actions.
    China's policies toward Tibetans have been the root case of 
protests and riots. There is no credible evidence to support 
Chinese government claims that the Dalai Lama or the ``Dalai 
Clique'' manipulated Tibetans into protesting and rioting.
    Communist Party power over China's legislative and 
regulatory process allows the government virtually unlimited 
ability to oppose unpopular programs among Tibetans. The 
function and legitimacy of Tibetan Buddhism has been especially 
hard hit since 2005. Tibetan protestors and their widespread 
calls for Tibetan independence have provided an unprecedented 
referendum on China's autonomy system. Weak implementation of 
the regional ethnic autonomy law is a principal factor 
preventing Tibetans from protecting their culture, language, 
and religion. The Chinese leadership's refusal to recognize the 
role of Chinese policy in driving Tibetan discontent, and their 
insistence on blaming the Dalai Lama, puts the Chinese 
leadership in an increasingly risky position.
    Senator Boxer. OK, I'm going to ask you to----
    Mr. Marshall. Thirty seconds. Fifteen seconds?
    Senator Boxer. Yes. You can have 30.
    Mr. Marshall. Tibetans will not accept a Chinese-appointed 
replacement of the 14th Dalai Lama. There is no reason at all 
to suppose that Tibetans will come to terms with Chinese 
policies. To assert otherwise, as Chinese do, is a gross 
miscalculation that could lead to local and regional security 
being put at heightened risk for decades to come. There can be 
no prospect for a durable resolution to the current crisis 
unless the Chinese Government implements an ethnic autonomy 
system that respects the rights of ethnic minorities to manage 
their own affairs and that engages the Dalai Lama in that 
process.
    Thank you, Chairman Boxer.


    [The prepared statement of Mr. Marshall follows:]

  Prepared Statement of Steven Marshall, Senior Advisor and Prisoner 
Database Program Director, Congressional-Executive Commission on China, 
                             Washington, DC

    Chairman Boxer and members of the committee, thank you for the 
opportunity to testify today on the events in the Tibetan areas of 
China, and on the prospects for ``peace.''
    My experience on the Tibetan plateau dates to the mid-1980s, and I 
have visited many of the areas, towns, and monasteries where today's 
protests and crackdown are unfolding. I witnessed at close range the 
events of 1989 that led to martial law in Lhasa. I know that Tibetans 
are facing very serious consequences.
    The cascade of Tibetan protests began in Lhasa on March 10, 2008, 
then, by the end of March, had swept across much of the ethnic Tibetan 
area of China. Except for periods of armed conflict between Tibetan and 
Chinese Armed Forces and periods of politically driven social chaos, no 
Chinese Government has been confronted by an upsurge of Tibetan 
discontent as widely dispersed, sustained, and popular since the 
Chinese Communist Party established the People's Republic of China in 
1949. Chinese public security forces, principally the People's Armed 
Police (PAP), moved swiftly to establish lockdowns in each protest 
site.
    As of today, the situation in Tibetan protest areas is as grim as 
it is fluid, and will negatively impact tens of thousands of Tibetans. 
Chinese security forces and government authorities are sealing off 
protest areas, cutting communications networks and confiscating 
communications equipment (including mobile phones and computers). As a 
result, the flow of information from protest areas is much less now 
than it was weeks ago. Unconfirmed reports tell of severe abuse and 
maltreatment to detainees--beating, inadequate food and water, and 
severe overcrowding. Authorities reportedly have transferred 
substantial numbers of detainees away from their areas of residence, 
often to locations unknown to their families. Very little information 
is available about the legal process facing thousands of detained 
Tibetans. Aggressive reimplementation of political indoctrination 
campaigns is following swiftly in the wake of crushed protests. Reports 
are emerging of anger at the new campaigns by monks who refuse to 
comply with demands to condemn the Dalai Lama. A second wave of 
detentions is taking shape. Authorities compel ordinary Tibetans to 
assemble publicly, denounce the Dalai Lama, and state that he was 
behind the protest and riot activity.
    A number of issues led to and result from this crisis.

  <bullet> Two key factors distinguish the current protests from the 
        March 1959 Lhasa uprising and the March 1989 protests and 
        rioting that led to martial law in Lhasa. First, the 2008 
        protests have spread far beyond Lhasa and the Tibet Autonomous 
        Region (TAR), and into Tibetan Autonomous Prefectures (TAPs) in 
        Qinghai, Gansu, and Sichuan provinces. Second, the protestors 
        have continued to persevere even as Chinese security forces 
        established and tightened lockdowns.
  <bullet> The total of officially acknowledged detentions is rising 
        steeply--but the official figures reflect only the fraction of 
        protests and resultant detentions that Chinese officials wish 
        for observers to see. The actual numbers are far higher. 
        Officials have released no information about the actions of 
        security forces against Tibetan protestors in more than 40 of 
        the counties where peaceful protests reportedly took place.
  <bullet> The Chinese leadership chose to blame the Dalai Lama for the 
        protests and for the resulting pre-Olympics news reporting 
        critical of China. At the same time, they chose not to 
        acknowledge Tibetan dissatisfaction with policies that have not 
        delivered the rights and freedoms nominally protected under 
        China's Constitution and legal system. Are there Tibetans in 
        exile who set out to encourage protest activity in the runup to 
        the Olympics? Yes, there are; but Chinese officials have 
        provided no evidence that links the Dalai Lama directly to such 
        objectives and activities.
  <bullet> Chinese officials also blame the Dalai Lama for Tibetan 
        violence during rioting in Lhasa and in other locations. They 
        do so by seeking to hold him accountable for the views of 
        individuals and groups in what Chinese authorities call ``the 
        Dalai clique.'' Are there Tibetans in exile who acknowledge 
        interest in a violent struggle for Tibetan independence, and 
        who have encouraged destructive action in China during the pre-
        Olympic period? Yes, there are; but the Dalai Lama's actions 
        and public statements, and his consistently pacifist counsel to 
        Tibetans--wherever they live--place him at odds with violent 
        intentions and actions.
  <bullet> China's policies toward Tibetans have been the root cause of 
        the protests and riots. There is no credible evidence to 
        support Chinese Government claims that the Dalai Lama (or ``the 
        Dalai clique'') manipulated Tibetans into protesting and 
        rioting. Communist Party power over China's legislative and 
        regulatory process allows the government virtually unlimited 
        ability to impose unpopular programs among Tibetans. The 
        function and legitimacy of Tibetan Buddhism has been especially 
        hard-hit since 2005.
  <bullet> Tibetan protestors, in their widespread calls for Tibetan 
        independence, have provided an unprecedented referendum on 
        China's autonomy system. Weak implementation of the Regional 
        Ethnic Autonomy Law is a principal factor preventing Tibetans 
        from protecting their culture, language, and religion. The 
        Chinese leadership's refusal to recognize the role of Chinese 
        policy in driving Tibetan discontent, and their insistence on 
        blaming the Dalai Lama, puts the leadership in an increasingly 
        risky position.
  <bullet> Tibetans will not accept a Chinese-appointed replacement of 
        the 14th Dalai Lama nor is there any reason to suppose that 
        they will come to terms with Chinese policies. To assert 
        otherwise, as the Chinese do, is a gross miscalculation that 
        could place local and regional security at heightened risk for 
        decades to come. There can be no prospect for a durable 
        resolution to the current crisis unless the Chinese Government 
        implements an ethnic autonomy system that respects the right of 
        ethnic minorities to manage their own affairs, and engages the 
        Dalai Lama in that process.

    The surge of events began on the anniversary of the date in 1959 
when the 14th Dalai Lama fled People's Liberation Army artillery shells 
and escaped into exile. When Tibetans learned of their loss, the result 
was the 1959 Lhasa Uprising. Forty-nine years later, 300 monks of 
Drepung Monastery attempted to walk to the center of Lhasa, the capital 
of the Tibet Autonomous Region (TAR). Their protest march was the 
largest by orders of magnitude since the current period of Tibetan 
dissent began in 1987. Security forces halted the monks and turned them 
back. Hundreds of Sera Monastery monks made a similar attempt the next 
day and were blocked by security forces. On March 14 a protest in 
Lhasa's Tibetan quarter turned into a riot that PAP let go unchecked 
for most of the day. The level of destruction and loss of life 
surpassed that of the March 1989 Lhasa riots, when President Hu Jintao 
served as the TAR Party Secretary, and authorities did not put a 
decisive end to the events until midnight of the third day, when the 
PLA marched into Lhasa and initiated 14 months of martial law.
    The dispersal and persistence of protests even as PAP established 
and maintained lockdowns distinguishes the 2008 events from those of 
1989 and 1959, and makes them more significant. By early April, 
unofficial sources reported Tibetan protests in more than 50 county-
level administrative areas. Nearly two-thirds of the counties are 
located outside the TAR in Tibetan Autonomous Prefectures (TAPs) that 
the Chinese Government established in Qinghai, Gansu, and Sichuan 
provinces. The scale of popular participation tests China's assertion 
that the protests are the result of instigation by ``a small handful'' 
of supporters of ``the Dalai clique.'' Most protests and protestors 
were peaceful, according to unofficial accounts, but in some locations 
(Lhasa, Aba county in Sichuan, and several counties in Gannan TAP in 
Gansu) Tibetans attacked government offices, private businesses, and 
citizens. China's state-run media has focused exclusively on such 
incidents, broadly characterizing the protests as ``riots'' and the 
protestors as ``rioters''--a troubling signal that authorities may seek 
to mask prosecution of peaceful protestors who exercised their basic 
human rights as justifiable state action against violent criminals. The 
Tibetan Government-in-exile and some advocacy groups, on the other 
hand, have sometimes described as ``peaceful protests'' those events 
during which Tibetans caused property damage and personal injury.
    The totals of officially acknowledged detainees are rising steeply, 
but international onlookers are glimpsing only the incidents and 
consequences that Chinese officials wish for them to see. In the nine 
counties where authorities have reported rioting on specific dates 
between March 14 and March 19, the protests resulted by early April in 
more than 20 fatalities caused by Tibetan rioters and more than 4,400 
persons in police custody after they surrendered voluntarily for 
participating in rioting or were detained by police for doing so. At 
least half of the 4,400 persons had been released by early April, 
according to official reports.
    In more than 40 of the counties where such protests reportedly 
occurred, Chinese officials have provided no information about the 
actions of security forces against peaceful Tibetan protestors. 
Authorities took measures to prevent Tibetans from sharing information 
about the protests and their consequences including confiscating cell 
phones and computers in lockdown locations, turning off cellular 
transmission facilities, and interfering with Internet access, 
according to unofficial accounts. International journalists and foreign 
journalists have been barred from entering Tibetan areas. Based on 
fragmentary, unconfirmed reports, the protests have resulted in more 
than 140 deaths of Tibetan protestors and an additional number of 
Tibetans detained for peaceful protesting estimated to number in the 
thousands.
    Faced with a choice between blaming the protests on the Dalai Lama, 
or acknowledging acute Tibetan dissatisfaction with policies that do 
not deliver the rights and freedoms nominally protected under China's 
Constitution and legal system, the Chinese leadership blamed the Dalai 
Lama. Even as protests continued to pop up in secured areas, the Party-
state apparatus moved to restore ``stability'' by reasserting and 
strengthening the very policies that stoked Tibetan frustration in the 
first place. In the most ferocious attack on the Dalai Lama since 
China's era of economic reform began in 1978, TAR Party Secretary Zhang 
Qingli, a Hu Jintao protege who like his mentor served the Communist 
Youth League and gained field experience in Gansu province, described 
the Dalai Lama as ``an evil spirit with a human face and the heart of a 
beast.'' Aggressive campaigns of ``patriotic education'' spread through 
counties where Tibetans had in previous days and weeks used protests to 
reject the tenets of Party-led indoctrination. Officials confronted 
monks, nuns, students, farmers, and nomads with demands to sign or 
thumbprint statements denouncing the Dalai Lama, accept as legitimate 
the Panchen Lama installed by the Chinese Government in 1995 (instead 
of Gedun Choekyi Nyima, the boy whom the Dalai Lama recognized as the 
Panchen Lama), and agree that Tibet has been for centuries a part of 
China.
    There are Tibetans in exile who set out to encourage protest 
activity by Tibetans in China in the runup to the Olympics, but Chinese 
officials have provided no evidence that links the Dalai Lama directly 
to such objectives or activities. Nonetheless, the Chinese Government 
holds the Dalai Lama personally responsible for statements and actions 
of Tibetan groups that he does not seek to control and that do not seek 
to be controlled by him, that do not support the Dalai Lama's policies, 
and that do not have previously demonstrated capacity to exert 
significant influence on events in the Tibetan areas of China. China's 
Ministry of Public Security (MPS) presented in an April 2 Xinhua report 
``evidence'' that ``the Dalai clique''--and by extension the Dalai 
Lama--``masterminded'' the March 14 riots in Lhasa, a charge that the 
government later expanded to include Tibetan rioting in other provinces 
on other dates. All of the alleged events that the MPS characterized as 
evidence applied to persons and groups that the report refers to 
collectively as ``the Dalai clique.'' None of the alleged events that 
the MPS characterized as evidence showed a direct link to the Dalai 
Lama.
    MPS ``evidence'' linking the Dalai Lama to the protests and riots 
focused principally on the Tibetan People's Uprising Movement (TPUM, 
www.tibetan
uprising.org), an alliance formed in January 2008 of five India-based 
Tibetan groups, chief among them the Tibetan Youth Congress (TYC). 
TPUM's Web site states that the groups aim to ``revive the spirit of 
the Tibetan national uprising of 1959'' and to ``seize the Olympic 
spotlight and shine it on China's shameful repression inside Tibet.'' 
The groups seek Tibetan independence and reject the Dalai Lama's Middle 
Way Approach to accept Tibetan ``genuine autonomy'' under Chinese 
sovereignty. TYC President Tsewang Rigzin told the Wall Street Journal 
on March 20 that he disagrees with the Dalai Lama's policy and 
observed, ``I don't see people out on the streets protesting for a 
`Middle Way.' ''
    There are also Tibetans in exile who acknowledge Tibetan interest 
in a violent struggle for Tibetan independence, and who have encouraged 
destructive action in China during the pre-Olympic period, but the 
Dalai Lama's longstanding policy of nonviolence, and his consistently 
pacifist counsel to Tibetans, place him at odds with any such 
intention. Then-TYC President Kalsang Phuntsok said in December 2005 
that some TYC members are attracted to ``violence-infested movements,'' 
such as those in the Middle East, that they see ``achieving results'' 
(Reuters, December 29). In February 2007, former TYC President Lhasang 
Tsering told approximately 200 Tibetans attending a public forum in 
India that the Olympics provide an opportunity to sabotage public 
infrastructure in China during an Olympic countdown when Chinese 
officials ``most need to be well-behaved.'' Likening Tibetan activists 
to ``mosquitoes who barge into bedrooms bringing in epidemics,'' he 
told the attendees, ``For a committed activist you don't need CIA's 
support to cut a telephone line in Beijing or throw an iron rod on the 
power cables in Shanghai. These kinds of sabotages can be done by any 
ordinary person, and can weaken the power from inside. Sometimes the 
whole city goes dark by one simple but technically correct act.'' 
(http://www.phayul.com/news/article.aspx?id=15653). The Dalai Lama, on 
the other hand, has repeatedly urged Tibetans to refrain entirely from 
violence. On April 6, he called on Tibetans living in exile to ``not 
engage in any action that could be even remotely interpreted as 
violent.''
    The Chinese Government has not provided a convincing argument that 
the Dalai Lama (or ``the Dalai clique'') manipulated Tibetans into 
protesting and rioting--instead, credible analysis supports the 
observation that China's policies toward Tibetans resulted in such 
actions. Increasing Tibetan resentment against Chinese policies that 
impact diverse areas of Tibetan life--religious and economic, urban and 
pastoral--sheds light on why monks, townsfolk, and nomads risked 
participating in protests across a wide swath of the Tibetan plateau.
    The function and legitimacy of Tibetan Buddhism--the core of 
Tibetan culture--has been especially hard-hit since 2005. New legal 
measures closely regulating monastic life in the TAR took effect in 
January 2007. Nationwide measures establishing state supervision of the 
centuries-old Tibetan tradition of identifying, seating, and educating 
boys whom Tibetans believe are reincarnations of Buddhist teachers took 
effect last September. The government can use such legal measures to 
remold Tibetan Buddhism to suit the state. The anti-Dalai Lama and 
patriotic education campaigns antagonize Tibetans in general, but they 
are especially harmful to Tibetans who regard the Dalai Lama, in his 
capacity as the spiritual leader of the Gelug tradition of Tibetan 
Buddhism, as their guide on the Buddhist path toward enlightenment. 
Zhang Qingli, since his arrival in the TAR in November 2005, has raised 
the Party's attack against the Dalai Lama to a post-Cultural Revolution 
high.
    The Qinghai-Tibet railway, a premier project of Great Western 
Development program, entered service in July 2006 and is reconfiguring 
the economic and employment outlook for Tibetans in Lhasa and nearby 
urban centers. Based on Congressional-Executive Commission on China 
analysis of fragmentary and sometimes contradictory official 
information, more than a half million railway passengers, most of whom 
are likely to be ethnic Han, may have traveled during to the TAR during 
the first 18 months of operation to seek work, trade, and business 
opportunities. The railway's impact could overwhelm Tibetans and 
sharply increase pressure on the Tibetan culture. Another state-run 
program to settle Tibetan nomads into compact communities is nearing 
completion throughout Tibetan areas, and has resulted in severe 
disruption to an important sector of the Tibetan culture and economy. 
Nomads have participated in the recent protests in substantial numbers, 
placing some counties on the protest map for the first time since 1987.
    Communist Party control over China's legislative, governmental, and 
policymaking process, as well as contradictory provisions in Chinese 
laws and regulations, support the government's unrestricted ability to 
implement unpopular programs among Tibetans. A core failure of the 
legal framework is the weak implementation of China's Regional Ethnic 
Autonomy Law (REAL), the state's principal legal instrument for 
managing the affairs of ethnic minorities. The REAL declares in its 
Preamble that the practice of autonomy conveys the state's ``full 
respect for and guarantee of ethnic minorities' right to administer 
their internal affairs.'' In practice, the right of Tibetans to protect 
their culture, language, and religion, and to manage policy 
implementation on issues such as economic development and the 
environment, is extremely circumscribed, if not negligible. Instead, 
the government prioritizes economic development programs that drive 
economic growth at a brisk rate, such as Great Western Development, but 
the Han population benefits disproportionately because much of the 
funding is channeled into infrastructure construction and urban 
development.
    Tibetan protestors, in their widespread calls for Tibetan 
independence, have provided an unprecedented referendum on China's 
autonomy system. Did they speak for the Tibetan majority who kept 
silent (and safe)? In a society without a free press, and in which 
opposition to Party policy can lead to imprisonment, no one can know 
for certain. By systematically failing to implement the REAL's core 
commitment to allow ethnic minorities to run their own internal 
affairs, the Party has demonstrated to Tibetans that their cultural 
outlook under the status quo is bleak. Ironically, the Party has 
undercut the Dalai Lama's campaign to persuade Tibetans to set aside 
the goal of independence and instead accept ``genuine autonomy'' under 
Chinese sovereignty. Many believe the Dalai Lama is the only person 
sufficiently influential among Tibetans to prove himself a decisive 
factor in working with the Chinese leadership to transform ethnic 
autonomy into an enduring success.
    The Chinese leadership's refusal to recognize the role of Chinese 
policy in driving Tibetan discontent, and their insistence on blaming 
the Dalai Lama, places the leadership in an increasingly risky 
position. If the leadership were to take advantage of the Dalai Lama's 
offer to help lead Tibetans toward compromise, then hard-liners would 
cast it as capitulation. In such circumstances, the leadership would 
recoil and back away from compromise in an attempt to preserve its 
power unchallenged. Instead, the Party has signaled that it may wait 
for the Dalai Lama to pass away, calculating perhaps that when the 
Dalai Lama's life comes to end, so will the issues that China 
associates with him. The Chinese Government will use the legal measures 
that it has already issued to supervise the selection of a new Dalai 
Lama, and pressure Tibetans to express their acceptance of the matter. 
Eventually, the government may hope, Tibetans will leave the 14th Dalai 
Lama in the past.
    If the leadership believes that Tibetans will accept a Chinese-
appointed replacement of the 14th Dalai Lama and come to terms with 
Chinese policies, it could prove to be a miscalculation that places 
local and regional security at heightened risk for decades to come. As 
the impact of Chinese legal measures and policies continue to diminish 
the core elements of Tibetan culture--religion, language, and self-
identity--the Dalai Lama installed by China will grow from boyhood to 
maturity and into old age. Many Tibetans may see in him a provocative 
symbol of Tibetan loss and humiliation, promoting deepening of Tibetan 
resentment. The recent protests, spread throughout a vast area beyond 
Lhasa, answered by a military-style response and intensification of the 
policies that fueled the eruption in the first place, may have already 
sewn the seeds for what someday could become the next generation of 
Tibetan protest.
    The prospect for a mutually beneficial and durable outcome could 
decline from poor to virtually nonexistent unless the Chinese 
Government resolves to fully implement the ethnic autonomy system, and 
to engage the Dalai Lama in that process. If Chinese and Tibetans--
along with their friends, neighbors, and partners--see in the current 
wave of Tibetan protests a daunting challenge, then each side should 
contemplate the potential outcome during a future scenario in which the 
14th Dalai Lama may no longer be available to urge Tibetans to back 
away from violence. Will a future Chinese President be able to explain 
persuasively to China's citizens why the leadership failed to meet with 
the Dalai Lama when they had the opportunity? The current Chinese 
leadership would do well to ask themselves the following question: Will 
a future Chinese President believe that a persuasive explanation even 
exists?
    Chairman Boxer, the staff of the Congressional-Executive Commission 
on China has prepared a list of concrete recommendations to address the 
current crisis. I would ask that this list be submitted for the record 
for the committee's consideration:

          1. Commence direct talks between the Chinese Government and 
        the Dalai Lama;
          2. Distinguish between peaceful protestors and rioters, honor 
        the Chinese Constitution's reference to the freedoms of speech 
        and association, and do not treat peaceful protest as a crime;
          3. Provide a detailed account of Tibetan protest activity in 
        each location where such activity took place;
          4. Provide details about each person detained or charged with 
        a crime, including each person's name, the charges (if any) 
        against each person, the name and location of the prosecuting 
        office (``procuratorate'') and court handling each case, and 
        the name of each facility where a person is detained or 
        imprisoned;
          5. Allow access by diplomats and other international 
        observers to the trials of people charged with protest-related 
        crimes;
          6. Allow international observers and journalists immediate 
        and unfettered access to Tibetan areas of China;
          7. Ensure that security officials fulfill their obligations 
        under articles 64(2) and 71(2) of China's Criminal Procedure 
        Law to inform relatives and work places (monasteries in the 
        case of monks) where detainees are being held;
          8. Encourage and facilitate the filing of compensation suits 
        under Chinese law in cases of alleged wrongful arrest, 
        detention, punishment and other official abuses during the 
        recent protests;
          9. Permit international observers to monitor closely the 
        implementation of China's new Regulation on Open Government 
        Information, which comes into force on May 1, 2008, with 
        special emphasis on implementation in Tibetan areas;
          10. Strictly enforce the Regulations on Reporting Activities 
        in China by Foreign Journalists During the Beijing Olympic 
        Games and the Preparatory Period, with special emphasis on 
        access to and in Tibetan areas of China.

    The Congressional Executive Commission on China (CECC) invites 
members of the Senate Foreign Relations Committee, Members of Congress, 
and the global Internet public to visit the Commission's Web site 
(http://www.cecc.gov) for additional information and updates on the 
unfolding events in the Tibetan areas in China. Please visit the 
Commission's Political Prisoner Database via a link on the CECC home 
page or at http://ppd.cecc.gov for information about Tibetans and other 
Chinese citizens detained or imprisoned for exercising their human 
rights.

    Senator Boxer. Thank you so very much.
    And then, last, but certainly not least, we welcome you, 
Dr. Lobsang Sangay. You have been very patient. Senior fellow, 
East Asian Legal Studies Program at Harvard University Law 
School.
    And I just want to thank both of you, in this panel, for 
coming forward.
    We look forward to your testimony.

 STATEMENT OF LOBSANG SANGAY, SENIOR FELLOW, EAST ASIAN LEGAL 
 STUDIES PROGRAM, HARVARD UNIVERSITY LAW SCHOOL, CAMBRIDGE, MA

    Dr. Sangay. Thank you, Madam Chairperson--Senator Boxer, 
and members of the subcommittee, for the honor of speaking 
before you today.
    I also appreciate the Senate's strong support for Tibet; 
specifically, Senate's letter to President Hu Jintao and the 
Senate's Resolution on Tibet, passed recently. You have 
demonstrated your leadership, and the convening of this hearing 
attests to your commitment to end the crisis in Tibet.
    I also agree with our Special Envoy, Lodi Gyari, that the 
recent uprising in Tibet is a failure of 50 years of Chinese 
Government occupation and misrule in Tibet. Like him, my family 
also suffered great deal. One of my aunts was pregnant and had 
to jump into river with an infant in her hand, because she 
found the weekly humiliation too much to bear. And my uncle 
also died of hunger in prison. So, in that sense, nonviolence 
is tough, dialogue is tough. Having said that, I still believe 
that meaningful dialogue between His Holiness the Dalai Lama 
and the Chinese Government can bring a lasting solution to the 
Tibet issue.
    China wants to be a great nation. History has shown, 
greatness cannot be bought in the marketplace and cannot be 
bought with force. Greatness has to be earned.
    In the last 50 years, China has transformed itself from a 
poor nation to booming economy. The world is mesmerized by its 
rapid modernization and economic growth. It is yet to be 
determined what kind of greatness is China heading for.
    The way China treats Tibet will reflect what kind of 
powerful nation China becomes. The present situation presents 
both a crisis and a tremendous opportunity. Now is the time for 
the Chinese leadership to demonstrate, not only its strength, 
but also its reason, as well as its compassion, to try to build 
a harmonious society for all.
    The scale and magnitude of the recent uprising in Tibet 
reflects the tipping point for the Tibetan people. As is often 
the case in ethnic conflict, when economic marginalization 
combines with cultural assimilation and political crackdown, 
you have all the elements of a potent and dangerous situation.
    If the tragedy in Tibet is not at rest soon, unfortunately 
the possibility of escalating tension and conflict are not a 
question of ``if,'' but ``when.''
    Now, what can the Senate do? As Madam Chair asked the 
question--and you would like to have action plan, and I have a 
suggestion. A first step would be to allow the Dalai Lama to be 
seen and heard by the Chinese people.
    Specifically, on March 13, Chinese Premier Wen Jiabao said, 
on Hong Kong television, that Dalai Lama should use his 
influence to end violence in Tibet. I believe the Chinese 
Government should allow the Dalai Lama to respond to Premier 
Wen Jiabao's call. In order for this to happen, the Chinese 
Government should allow the Dalai Lama to speak directly to the 
people in Tibet.
    If the Chinese Government is serious and sincere, then 
instead of demonizing him and blocking him out, they must allow 
his voice, his image, and his message of peace, justice, and 
reconciliation to reach the Chinese public directly. If the 
Dalai Lama were allowed to transmit a message to Chinese media 
in China to use his authority amongst Tibetan people to ensure 
peace and harmony of the Olympic Torch passing through Tibet 
and the Games itself, this would be a significant step forward 
in dialogue. This would demonstrate to the Chinese public and 
Chinese leadership the sincerity of the Dalai Lama.
    Finally, I strongly believe that our first priority is to 
build trust between Chinese and Tibetan people. Mutual 
understanding will require both sides to take some risk. 
Allowing the Dalai Lama's message to be heard inside China 
would be a powerful first step.
    Let me conclude by saying, in my current position at 
Harvard I have worked earnestly and in good faith on 
facilitating people-to-people exchanges between Chinese and 
Tibetan scholars, which have led to six very productive sets of 
meetings over the past 6 years. I sincerely believe dialogue is 
the pathway to harmony, and I also believe it is possible.
    Now is the time for His Holiness the Dalai Lama and the 
Chinese Government to sit down face to face and reach a lasting 
and mutually agreeable solution. I pray that American 
leadership, through your Senate office, will strongly support 
this approach.
    Thank you.


    [The prepared statement of Dr. Sangay follows:]

  Prepared Statement of Dr. Lobsang Sangay, Senior Fellow, East Asian 
  Legal Studies Program, Harvard University Law School, Cambridge, MA

    Thank you, Chairwoman Senator Boxer, and members of the 
subcommittee, for the honor of speaking before you today. I applaud the 
actions of the Senate during this crisis, most notably the Senate 
letter to President Hu Jintao, sent on April 2, and the Senate 
resolution passed on April 9 (S. Res. 504--110th Congress (2008)). You 
have demonstrated your leadership, and the convening of this hearing 
attests to your commitment to support a positive way forward out of the 
current crisis.
    There is now a window of opportunity for meaningful dialogue 
between the two sides to find a lasting solution to the Tibet issue. 
The issue will not go away, and the earlier it is addressed, the better 
it will be for all.

                        CHINA AS A GREAT NATION

    China wants to be a great nation. History has shown that greatness 
cannot be bought in the marketplace. Greatness must be earned. In the 
last 50 years, China has transformed itself from a poor nation to a 
booming economy. The world is mesmerized by its rapid modernization and 
hopes that along with its economic growth, forward strides will be made 
by and for its people in all spheres, not just economic.
    The way China treats Tibet will reflect what kind of great nation 
China becomes. The present situation presents both a crisis, and a 
tremendous opportunity--an opportunity for the Chinese Government to 
demonstrate legitimacy in its leadership and confidence in its position 
by sitting down to negotiate with the Dalai Lama. Now is the time for 
the Chinese leadership to demonstrate not only its strength, but also 
its reason and its compassion as it builds a harmonious society for 
all.

                        HISTORY AND NATIONALISM

    For China, the building of the modern nation-state was a response 
to a bitter history of Western imperialism during the late Qing Empire. 
Nation-state building was an effective way to fend off further foreign 
encroachment in a world dominated by Western norms of international 
practices. The Chinese Government today perceives the Tibet issue from 
the perspective of Chinese nationalism, but fails to understand that 
Tibetans also perceive themselves as victims, or rather victimized by 
former victims of Western imperialism. The inability of the Chinese 
Government to move beyond the constraints of this type of nationalism 
presents a huge obstacle to confronting the core issues facing the 
Tibetan people.
    New thinking is needed for the nation of China to continue its 
evolution toward greatness. Let us be optimistic in anticipating that 
in contrast to the war-ridden 20th century, the 21st century will be 
dominated by themes such as globalization, interdependence, and cross-
cultural understanding and tolerance. The Dalai Lama's middle path 
approach of seeking genuine autonomy within the framework of China has 
substantial legitimacy in the context of China's own rich history.

                         A HISTORIC OPPORTUNITY

    The scale and magnitude of the recent uprising in Tibet reflects a 
tipping point for the critical mass of the Tibetan people. As is often 
the case in ethnic conflict, when economic suffering combines with 
political issues relating to identity and dignity, you have all the 
elements of a potent and dangerous situation. If the tragedy in Tibet 
is not addressed soon, the possibility of escalating tension and 
conflict are not a question of if, but when.
    China has a historic opportunity before it. As it rises to the 
world stage to host the Olympic Games, now is the time for it to extend 
its hand to the Dalai Lama and the Tibetan people to enhance its proper 
place as a leader amongst nations.

                             STEPS FORWARD

    A significant step would be for the Chinese Government to allow for 
the normalization of the Dalai Lama within China. This is the first 
step toward genuine dialogue--to allow the Dalai Lama to be seen and 
heard by the Chinese people.
    Specifically, the Chinese Government should allow the Dalai Lama to 
respond to Premier Wen Jiabao's call for him to use his influence to 
restore calm and order amongst the Tibetan people. In order for this to 
happen, the Chinese Government must allow the Dalai Lama's message to 
be heard inside China. Instead of attacking him and blocking him out, 
they should allow his voice, his image and his message of peace, 
justice, and reconciliation to reach the Chinese public directly. If 
the Dalai Lama were allowed to publicly transmit a message inside 
China, to use his authority amongst the Tibetan people to ensure peace 
and harmony of the Olympic torch passing through Tibet, and the Games 
itself, this would be a significant step forward in dialogue. It would 
also demonstrate to the Chinese public, and the Chinese leadership, the 
sincerity of his position. It would open up space for Chinese and 
Tibetan people to work together toward a harmonious common future.
    At this critical juncture, another urgent need is to enable the 
Chinese and Tibetan people to have more access to the free flow of 
information. Controls over access to information in China pose a 
serious impediment to China's progress. Specific to Tibet, the fact 
that foreign correspondents are denied access to Tibetan areas only 
undermines China's own interests and position. Here, it is imperative 
that we continue to do what we can to support the process of opening up 
windows and channels to information, knowledge and understanding for 
the mutual benefit of Tibetans, Han, and for China itself.
    Finally, as a beneficiary of the Fulbright Program, which 
facilitated my enrollment in Harvard Law School in 1995, I have come to 
see the strategic value of academic exchanges. In my current position 
at Harvard, I have worked earnestly and in good faith on facilitating 
people-to-people exchanges between Chinese and Tibetan scholars which 
have led to six very productive sets of meetings over the past 6 years. 
Ultimately the Tibet issue has to be addressed through dialogue between 
Chinese and Tibetan people.
    The suggestions I have put forward here are based on one principle, 
and that is that our first priority is to build trust between the two 
sides. There is nothing more urgent now than to create momentum for 
mutual understanding and that will require both sides to take some 
political risk. The first step toward this is to allow the Dalai Lama's 
message to be heard, not in the West, but inside China itself.
    I pray that American leadership will actively support this 
approach. Having engaged in promoting dialogue between Chinese and 
Tibetan scholars for the last decade, I strongly believe dialogue is 
the best way to solve the Tibet issue peacefully.

    Senator Boxer. Well, I so appreciate both of your 
statements.
    Mr. Sangay, I'm very interested--and I think Senator 
Murkowski is, as well--in what we can do to allow that kind of 
communication, because a message of peace from the Dalai Lama 
would go a long way, I think, to making sure that the people in 
Tibet get the message and the--within the Tibet region and the 
rest of China, as well. Because what is worrying me, as I said 
before to Mr. Gyari, is my concern, as I read the press--and 
this is just from the press, I don't know if it's true--that 
there's more and more strain between those outside Tibet and 
those inside Tibet. In other words, I'm fearful that the 
majority of the Chinese people are, maybe, getting more hostile 
toward the Tibetan people. I don't know if that's true, so 
maybe that would be my question. Do you think that there--what 
do you think, if you could characterize the views of the 
majority of the Chinese toward the Tibetan people--would you 
say that they have an attitude, as we say in America, ``Live 
and let live,'' or, ``Gee, we don't understand them,'' or--what 
do you think? Because we know so little about--can't find out, 
really, the true public opinion. But, your sense of it, what do 
the--most of the Chinese people feel toward the Tibetan people?
    Dr. Sangay. Until the recent uprising, I feel most of the 
Chinese were ignorant of what was going on, or they really did 
not care, because, you know, Tibet is in the western region, 
which is marginal in their day-to-day life.
    Since the uprising, because of the Chinese Government one-
sided or overemphasis on the afternoon of 14 March riots in 
Lhasa, I think it has unleashed, unfortunately, Han Chinese 
chauvinism and nationalism toward Tibetan people. That has 
distorted the image of Tibetan people. And that begs the 
question, actually--because, on the one hand, the Chinese 
Government projected Tibet and Tibetan people before the 
uprising as peaceful, loving, grateful, loyal, and smiling 
citizens of China. After the protests, now the Tibetans are 
projected as disloyal, ungrateful thugs, vandalizers, and 
killers. Now, which image is true? You know? That, I think, the 
Chinese people has to ask, because they were being given one 
image for the last 50 years, now they are given the other 
image. I think this distortion of image calls for a need for 
the Chinese people to hear His Holiness' message of peace----
    Senator Boxer. Yeah.
    Dr. Sangay [continuing]. Directly. And then--that's why we 
propose this, because Chinese Premier Wen Jiabao himself 
proposed this. He said Dalai Lama should use his influence to 
end violence in----
    Senator Boxer. Right.
    Dr. Sangay [continuing]. Tibet.
    Senator Boxer. Right
    Dr. Sangay. That's the proposition. And I think the--
through the office of Senate and the U.S. leadership to respond 
and say, ``Well, let Dalai Lama hear--let the Chinese people in 
China and Tibetan people in Tibet hear what he has to say.''
    Senator Boxer. It's a good point, because the Chinese 
leadership has said that--has challenged the Dalai Lama and 
said, ``Tell them to stop the rioting,'' and--which he said, 
``Look, I'm not behind it.'' But, if he could address everyone, 
I think that is a very, very smart recommendation, and I'm 
going to discuss these recommendations with my colleague here, 
and I--I hope that, perhaps, we'll put that on the list. But, 
we're going to have a bipartisan action plan, and that's 
certainly something I'm going to recommend. Thank you.
    And, Mr. Marshall, first of all, you're very wise to have, 
as one of the--I think, deputy staff director, Charlotte 
Oldham-Moore, because, basically, she taught me everything I 
know about this region of the world, and I miss her very much. 
She used to work for me. And my loss is your gain. But, I'm 
very happy to see Charlotte here, and wanted to welcome----
    Mr. Marshall. We're fortunate.
    Senator Boxer. I wanted to welcome her.
    And this is my last question. And it is this. Mr. Marshall, 
you and I are sort of on the same path of this action plan, and 
you've come up with some ideas in your written testimony. And 
one of them is what the international observers should do: They 
should be granted access to trials, given immediate access to 
the Tibetan areas of China, a couple of other things. My 
question is this. Are there international observers that are 
both credible and acceptable to the Government of China?
    Mr. Marshall. The foreign diplomats who are already in 
China would be one of the most ideal and easily available 
resources, because they are allowed to attend trials and other 
legally oriented events. So----
    Senator Boxer. OK
    Mr. Marshall [continuing]. If they were able to do this, 
that would be great. Almost any international observer who is 
not closely aligned with one or another----
    Senator Boxer. All right.
    Mr. Marshall [continuing]. Political position----
    Senator Boxer. So, people who are already in the country, 
that they trust. Very good.
    Mr. Marshall. I believe----
    Senator Boxer. No, that's very, very helpful as we come up 
with this action plan.
    So, I just want to thank you very much. I'll turn over, to 
close, to Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman.
    And my apologies to you, gentlemen, I had to step out, so I 
wasn't able to hear most of your oral testimony here, but I 
have had an opportunity to prepare some questions for you.
    Mr. Sangay, your comments about the need for all of China 
to hear from the Dalai Lama, I think, just speaks to the point 
that we have made in letters, in committee, here, that there 
must be greater access to the international media, greater 
access to the nongovernmental organizations in the areas, so 
that we can know what is truly being said, and others can know, 
fully and fairly, what is being said. Most important, there.
    Mr. Sangay, you have--you've said, in the past, that you 
believe that--and this is your statement--``With the passing of 
the Dalai Lama, Tibetans will become more radicalized.'' I'm 
wondering if that is still your position, and whether or not 
the events of the last few weeks have either shifted or perhaps 
strengthened that view. What is happening out there, kind of, 
for the future of Tibet?
    Dr. Sangay. I just want to thank you, first, for accepting 
our proposition, or at least my proposition. It's true, still, 
the information inside China and Tibet are distorted. Radio 
Free Asia and Voice of America are trying their best to 
disseminate information, but it's still jammed and blocked. And 
they deserve support.
    Now, as for radicalization of Tibetan people, yes, 
unfortunately, I do think so, because one key factor that, I 
feel, is the age of His Holiness the Dalai Lama, because for 
any agreement to work, time if of the essence. You need time, 
not just to negotiate the deal, but it has to implement. To 
effectively implement it, it takes time. And then, His Holiness 
is already 73 years old. And then--that's why I think one of 
the reasons of recent uprising in Tibet is because of His 
Holiness. And that is made very clear by the protests and 
uprising in 90-plus areas, because the universal and united 
slogan of all the Tibetans, man and woman, nomads and farmers, 
everybody was same thing. There was ``Long live the Dalai Lama. 
We want him back. He is our leader. He should be back to the 
land he was born, to the land where people are still loyal and 
dedicated to him.'' They desperately want to see him.
    Now, if that situation--if that prospect dims, I think 
Tibetans will be more frustrated, more radicalized. Because, as 
it is, there is economic marginalization, there is cultural 
assimilation, there is political control. Now, on top of that, 
the emotional threat that they have with His Holiness and the 
faith that they have with His Holiness, if they see the 
prospect that he's not going to be seen or returned to Tibet, 
that would definitely radicalize the Tibetan people inside 
Tibet, unfortunately. I'm sad to say it. And that would not be 
a scenario which will help the Chinese Government, China, and 
also the Tibetan people. And that situation, we must avoid. For 
that to happen, I think we need a process through which, you 
know, dialogue has to take place. And for that to happen, His 
Holiness' message of peace, his voice, his image has to be 
transmitted inside China, so the Chinese people can hear him 
and decide for themself what kind of leader he is. The rest of 
the world knows what kind of leader he is. But, the Chinese 
people should decide, not just rely on, you know, one-sided 
distorted image that they're trying to project.
    Senator Murkowski. So, when you hear the comments that were 
made earlier by Secretary Negroponte, that the policy 
perspective or the policy push that we make is continued, and 
meaningful dialogue, you look--you must be frustrated even more 
than some of those who are engaged in that dialogue, because 
you're saying there's a timeliness, there's an imperative here. 
You have a leader who is not getting younger, and the situation 
could become worse for China, should there not be resolution in 
the very short term.
    Dr. Sangay. Yes, there is a corelationship between dialogue 
not working and violent or uprising in Tibet. For example, in 
1951, His Holiness the Dalai Lama was in the border of India. 
He could just cross over. But then, his representatives in 
Beijing signed what--so-called 17-point agreement with the 
Chinese Government. Though it was signed under duress and 
force, His Holiness felt, you know, ``I will give one more try 
to work out with the Chinese Government,'' and he returned to 
Lhasa, and he tried his best to work with the Chinese 
Government. But, by 1959, the--His Holiness realized, and--
realized that Chinese Government was more interested in 
consolidating their position in Tibet, rather than implementing 
their own agreement, which was forced on Tibetans. So, he had 
to flee. That led to the major uprising in Lhasa in 19---Lhasa 
and all over Tibet in 1959.
    Now, in 1982 and 1984, His Holiness the Dalai Lama sent two 
delegations to Beijing to negotiate with the Chinese Government 
on the future prospect of Tibet, because the then leader of 
China said anything other than independence can be discussed. 
With that premise, he sent his representative, but upon the 
arrival in Beijing, they were told that, you know, they will 
make five-point offer to the Dalai Lama to restore his 
political position and status. But, His Holiness the Dalai Lama 
made it very clear at that time, he said, ``I'm not interested 
in my own political position, but I'm interested in the welfare 
of 6 million Tibetans.''
    Now, after 1984, it was very clear that the liberal and 
more moderate leader, Hu Yaobang, was losing power, and then 
that led to the closure of the negotiation. Then, 1987, 1989-
87, 1988, 1989 uprising happened in Lhasa and neighboring 
areas.
    Now, recently, since 2002, His Holiness sent six 
delegations as--he was chief negotiator, he went. Since 2002--
the six delegation went. Each time, they came back empty-
handed. Right? And then, that led to--that is one of the reason 
the--for the recent uprising, because Tibetans in Tibet felt 
that they want to see His Holiness the Dalai Lama back, but 
they felt that these--the dialogue--so-called dialogue--is 
just, you know, a waste of time or that the Chinese Government 
is just taking Dalai Lama for a ride. And that, kind of, I 
think, fueled resentment and that led to the uprising. So, 
there is a co relation between dialogue not working and an 
uprising. And the key is always been His Holiness the Dalai 
Lama. So, Tibetans in Tibet, they want to see, they are 
desperate to see His Holiness the Dalai Lama back, and if that 
is not fulfilled, it will be tragic for all of us, and then 
situation inside Tibet will be unfortunate for all of us.
    Senator Murkowski. Well, thank you.
    I want to appreciate--I appreciate both of you being on the 
panel, but also for the very important perspective that you 
have shared with us.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator Murkowski. It's great to 
be your partner as we work on this.
    And I was told that the last Tibet legislation that's been 
referred to was really just advisory. It said we should do this 
and should do that. And I'm thinking maybe some of the things 
that we agree on maybe we should write some legislation. So, 
let's work together as a followup to this. And I think that 
Secretary Negroponte certainly opened the door to working with 
us. So, let's do that.
    And I'd ask unanimous consent that the record be kept open 
for additional statements until the end of the week.
    Senator Boxer. And I ask unanimous consent that an appeal 
to the Chinese people by the Dalai Lama, be included in the 
record; that remarks prepared for delivery by Mr. Gyari--it's--
the speech is called ``Seeking Unity Through Equality''--be 
included in the record; that the names of ten Tibetan political 
prisoners, submitted by the Congressional-Executive Commission 
on China, be submitted for the record; and that the statement 
for the record from the Commission on International Religious 
Freedom be included in the record.

    [The information referred to above can be found in the 
Appendix to this hearing print.]

    Senator Boxer. And, with that, I think we conclude the 
business.
    Again, we thank everybody for their patience and for their 
testimony.
    And we stand adjourned.


    [Whereupon, at 5:08 p.m., the hearing was adjourned.]
                              ----------                              



                            A P P E N D I X

                              ----------                              


 Responses to Additional Questions Submitted for the Record by Members 
                            of the Committee

  Responses to Questions Submitted to Deputy Secretary of State John 
                 Negroponte by Senator Richard G. Lugar


    Question. In the view of the Administration, what is the current 
status of the commitments made by China when it was seeking to host the 
Olympic Games?

    Answer. When Beijing was selected as the host city for the 2008 
Olympic Games, the International Olympic Committee (IOC) and Beijing's 
Organizing Committee for the Olympic Games (BOCOG) signed a ``host city 
compact'' specifying the terms China was to fulfill as host of the 
Games. We are not privy to this agreement, but we know that in addition 
to addressing such matters as security and pollution controls, China 
made certain commitments regarding press and media freedom. In its 
Olympic bid application, BOCOG stated that there would be ``no 
restrictions on journalists in reporting on the Olympic Games.'' BOCOG 
stated in its September 2003 Olympic Action Plan that ``in the 
preparation for the Games, we will be open in every aspect to the rest 
of the country and the whole world.''
    At the end of 2006 China promulgated temporary rules for foreign 
journalists, which became effective in January 2007 and eliminated the 
requirement for journalists to seek approval from authorities before 
conducting interviews. However, these regulations specifically exempted 
the Tibet Autonomous Region (TAR), where special permits continued to 
be required for reporters. The Foreign Correspondents Club of China 
reported earlier this year that the regulations improved overall 
reporting conditions for foreign journalists, but that problems with 
enforcement of the regulations remained a challenge. Since the unrest 
in Tibet, access to Tibetan areas has been restricted and tight 
controls have been imposed on communications limiting information flow 
from those areas.
    We are deeply concerned by these restrictions and have pressed 
Chinese officials at the highest levels to provide access to all 
Tibetan areas for media, diplomats and international observers. Such 
controls on the press and the free flow of information not only damage 
China's international reputation, but also run counter to China's 
promise to open China to the world, increase media access, and allow 
foreign reporters greater freedom to report in all parts of China 
before and during the 2008 Olympic Games.


    Question. In the administration's dialogue with China over Tibet 
issues, have the Chinese been forthcoming as to why they will not sit 
down and talk directly with the Dalai Lama? Have they laid out any 
specific pre-conditions before they will agree to such talks?

    Answer. On April 25, the Chinese government announced that Chinese 
officials would meet with the Dalai Lama's representatives for 
``private'' discussions. A meeting between Chinese officials and the 
Dalai Lama's envoys took place in Shenzhen on May 4. We see this as a 
constructive first step towards what we hope will be substantive, 
results-based dialogue. With respect to pre-conditions for direct talks 
with the Dalai Lama, Chinese authorities have repeatedly stated that he 
must take measures to end acts of violence, refrain from ``sabotage'' 
of the Olympic Games, and curtail his ``separatist'' activities. As 
stated in Under Secretary Dobriansky's April 21 op-ed in the Washington 
Post, the Dalai Lama has met China's pre-conditions, in that he has 
repeatedly and publicly said that he does not seek independence, 
renounces violence, and supports China's hosting of the Olympics. In 
our view, harsh rhetoric against the Dalai Lama is counterproductive 
and serves to further enflame ethnic tensions. We continue to believe 
that the path to genuine stability in Tibet is through substantive 
dialogue with the Dalai Lama and his representatives, and we have made 
this clear to China's leaders.
              Additional Material Submitted for the Record

           An Appeal to the Chinese People by the Dalai Lama

    Today, I extend heartfelt greetings to my Chinese brothers and 
sisters around the world, particularly to those in the People's 
Republic of China. In the light of the recent developments in Tibet, I 
would like to share with you my thoughts concerning relations between 
the Tibetan and Chinese peoples, and make a personal appeal to all of 
you.
    I am deeply saddened by the loss of life in the recent tragic 
events in Tibet. I am aware that some Chinese have also died. I feel 
for the victims and their families and pray for them. The recent unrest 
has clearly demonstrated the gravity of the situation in Tibet and the 
urgent need to seek a peaceful and mutually beneficial solution through 
dialogue. Even at this juncture I have expressed my willingness to the 
Chinese authorities to work together to bring about peace and 
stability.
    Chinese brothers and sisters, I assure you I have no desire to seek 
Tibet's separation. Nor do I have any wish to drive a wedge between the 
Tibetan and Chinese peoples. On the contrary my commitment has always 
been to find a genuine solution to the problem of Tibet that ensures 
the long-term interests of both Chinese and Tibetans. My primary 
concern, as I have repeated time and again, is to ensure the survival 
of the Tibetan people's distinctive culture, language and identity. As 
a simple monk who strives to live his daily life according to Buddhist 
precepts, I assure you of the sincerity of my personal motivation.
    I have appealed to the leadership of the PRC to clearly understand 
my position and work to resolve these problems by "seeking truth from 
facts". I urge the Chinese leadership to exercise wisdom and to 
initiate a meaningful dialogue with the Tibetan people. I also appeal 
to them to make sincere efforts to contribute to the stability and 
harmony of the PRC and avoid creating rifts between the nationalities. 
The state media's portrayal of the recent events in Tibet, using deceit 
and distorted images, could sow the seeds of racial tension with 
unpredictable long-term consequences. This is of grave concern to me. 
Similarly, despite my repeated support for the Beijing Olympics, the 
Chinese authorities, with the intention of creating a rift between the 
Chinese people and myself, the Chinese authorities assert that I am 
trying to sabotage the games. I am encouraged, however, that several 
Chinese intellectuals and scholars have also expressed their strong 
concern about the Chinese leadership's actions and the potential for 
adverse long-term consequences, particularly on relations among 
different nationalities.
    Since ancient times, Tibetan and Chinese peoples have lived as 
neighbors. In the two thousand year old recorded history of our 
peoples, we have at times developed friendly relations, even entering 
into matrimonial alliances, while at others we fought each other. 
However, since Buddhism flourished in China first before it arrived in 
Tibet from India, we Tibetans have historically accorded the Chinese 
people the respect and affection due to elder Dharma brothers and 
sisters. This is something well known to members of the Chinese 
community living outside China, some of whom have attended my Buddhist 
lectures, as well as pilgrims from mainland China, whom I have had the 
privilege to meet. I take heart from these meetings and feel they may 
contribute to a better understanding between our two peoples.
    The twentieth century witnessed enormous changes in many parts of 
the world and Tibet too was caught up in this turbulence. Soon after 
the founding of the People's Republic of China in 1949, the People's 
Liberation Army entered Tibet finally resulting in the 17-point 
Agreement concluded between China and Tibet in May 1951. When I was in 
Beijing in 1954/55, attending the National People's Congress, I had the 
opportunity to meet and develop a personal friendship with many senior 
leaders, including Chairman Mao himself. In fact, Chairman Mao gave me 
advice on numerous issues, as well as personal assurances with regard 
to the future of Tibet. Encouraged by these assurances, and inspired by 
the dedication of many of China's revolutionary leaders of the time, I 
returned to Tibet full of confidence and optimism. Some Tibetan members 
of the Chinese Communist Party also had such a hope. After my return to 
Lhasa, I made every possible effort to seek genuine regional autonomy 
for Tibet within the family of the People's Republic of China (PRC). I 
believed that this would best serve the long-term interests of both the 
Tibetan and Chinese peoples.
    Unfortunately, tensions, which began to escalate in Tibet from 
around 1956, eventually led to the peaceful uprising of March 10, 1959, 
in Lhasa and my eventual escape into exile. Although many positive 
developments have taken place in Tibet under the PRC's rule, these 
developments, as the previous Panchen Lama pointed out in January 1989, 
were overshadowed by immense suffering and extensive destruction. 
Tibetans were compelled to live in a state of constant fear, while the 
Chinese government remained suspicious of them. However, instead of 
cultivating enmity towards the Chinese leaders responsible for the 
ruthless suppression of the Tibetan people, I prayed for them to become 
friends, which I expressed in the following lines in a prayer I 
composed in 1960, a year after I arrived in India: ``May they attain 
the wisdom eye discerning right and wrong, And may they abide in the 
glory of friendship and love.'' Many Tibetans, school children among 
them, recite these lines in their daily prayers.
    In 1974, following serious discussions with my Kashag (cabinet), as 
well as the Speaker and the Deputy Speaker of the then Assembly of the 
Tibetan People's Deputies, we decided to find a Middle Way that would 
seek not to separate Tibet from China, but would facilitate the 
peaceful development of Tibet. Although we had no contact at the time 
with the PRC--which was in the midst of the Cultural Revolution--we had 
already recognized that, sooner or later, we would have to resolve the 
question of Tibet through negotiations. We also acknowledged that, at 
least with regard to modernization and economic development, it would 
greatly benefit Tibet if it remained within the PRC. Although Tibet has 
a rich and ancient cultural heritage, it is materially undeveloped.
    Situated on the roof of the world, Tibet is the source of many of 
Asia's major rivers; therefore, protection of the environment on the 
Tibetan plateau is of supreme importance. Since our utmost concern is 
to safeguard Tibetan Buddhist culture - rooted as it is in the values 
of universal compassion - as well as the Tibetan language and the 
unique Tibetan identity, we have worked whole-heartedly towards 
achieving meaningful self-rule for all Tibetans. The PRC's constitution 
provides the right for nationalities such as the Tibetans to do this.
    In 1979, the then Chinese paramount leader, Deng Xiaoping assured 
my personal emissary that ``except for the independence of Tibet, all 
other questions can be negotiated.'' Since we had already formulated 
our approach to seeking a solution to the Tibetan issue within the 
constitution of the PRC, we found ourselves well placed to respond to 
this new opportunity. My representatives met many times with officials 
of the PRC. Since renewing our contacts in 2002, we have had six rounds 
of talks. However, on the fundamental issue, there has been no concrete 
result at all. Nevertheless, as I have declared many times, I remain 
firmly committed to the Middle Way approach and reiterate here my 
willingness to continue to pursue the process of dialogue.
    This year, the Chinese people are proudly and eagerly awaiting the 
opening of the Olympic Games. I have, from the start, supported 
Beijing's being awarded the opportunity to host the Games. My position 
remains unchanged. China has the world's largest population, a long 
history and an extremely rich civilization. Today, due to her 
impressive economic progress, she is emerging as a great power. This is 
certainly to be welcomed. But China also needs to earn the respect and 
esteem of the global community through the establishment of an open and 
harmonious society based on the principles of transparency, freedom, 
and the rule of law. For example, to this day victims of the Tiananmen 
Square tragedy that adversely affected the lives of so many Chinese 
citizens have received neither just redress nor any official response. 
Similarly, when thousands of ordinary Chinese in rural areas suffer 
injustice at the hands of exploitative and corrupt local officials, 
their legitimate complaints are either ignored or met with aggression. 
I express these concerns both as a fellow human being and as someone 
who is prepared to consider himself a member of the large family that 
is the People's Republic of China. In this respect, I appreciate and 
support President Hu Jintao's policy of creating a ``harmonious 
society,'' but this can only arise on the basis of mutual trust and an 
atmosphere of freedom, including freedom of speech and the rule of law. 
I strongly believe that if these values are embraced, many important 
problems relating to minority nationalities can be resolved, such as 
the issue of Tibet, as well as Eastern Turkistan, and Inner Mongolia, 
where the native people now constitute only 20% of a total population 
of 24 million.
    I had hoped President Hu Jintao's recent statement that the 
stability and safety of Tibet concerns the stability and safety of the 
country might herald the dawning of a new era for the resolution of the 
problem of Tibet. It is unfortunate that despite my sincere efforts not 
to separate Tibet from China, the leaders of the PRC continue to accuse 
me of being a ``separatist.'' Similarly, when Tibetans in Lhasa and 
many other areas spontaneously protested to express their deep-rooted 
resentment, the Chinese authorities immediately accused me of having 
orchestrated their demonstrations. I have called for a thorough 
investigation by a respected body to look into this allegation.
    Chinese brothers and sisters--wherever you may be--with deep 
concern I appeal to you to help dispel the misunderstandings between 
our two communities. Moreover, I appeal to you to help us find a 
peaceful, lasting solution to the problem of Tibet through dialogue in 
the spirit of understanding and accommodation.


    With my prayers,
                            The Dalai Lama, March 28, 2008.
                     Seeking Unity Through Equality


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      Tibetan Political Prisoners


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Statement Submitted by the U.S. Commission on International Religious 
                                Freedom


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Prepared Statement of Hon. Barack Obama, 
                       U.S. Senator From Illinois

    Madam Chairwoman, I commend you for holding this hearing today. 
Like you, I've been deeply concerned about the recent events in Tibet. 
I welcome our witnesses, including Deputy Secretary of State Negroponte 
and Lodi Gyari, the special representative of His Holiness the Dalai 
Lama. Lodi has held six rounds of dialogue with the Chinese Government 
over the past several years in search of a solution that will bring 
genuine reconciliation between the Tibetan people and the Chinese 
Government. A negotiated settlement between China and the Dalai Lama 
remains the best hope for a resolution of this crisis. Right now, the 
most important thing is to seize this moment when the world's attention 
is focused on Tibet to reach an agreement that will guarantee religious 
freedom for the Tibetan people, protect Tibetan culture and language, 
and provide meaningful autonomy for Tibetans in the areas of economic 
development and environmental protection.
    The Dalai Lama has met all of the conditions that China requires 
for dialogue to succeed. The Dalai Lama recognizes that Tibet is part 
of China, and he does not advocate independence for Tibet. The Dalai 
Lama supports engagement and dialogue with China. Even after the recent 
violence, the Dalai Lama has indicated his continued support for 
holding the Olympic Games in Beijing. And the Dalai Lama acknowledges 
that China has brought economic development to the Tibetan plateau, 
improving the standard of living for millions of Tibetans.
    Most importantly, the Dalai Lama is a man of peace. I had the 
privilege of speaking with the Dalai Lama during his trip this month to 
the United States. He reiterated to me that he continues to condemn the 
violence that erupted recently in Lhasa and other Tibetan cities. This 
commitment to peace, nonviolence and religious tolerance is why the 
United States Congress honored the Dalai Lama with the Congressional 
Gold Medal last October.
    China should recognize the opportunity that exists to begin a new 
chapter in Tibet's troubled history. That new beginning should start 
with an understanding of the origins of the recent unrest. There is 
little mystery about why Tibetans remain unhappy. The Tibetans who took 
to the streets in March were clear about their grievances. They want 
the freedom to practice their religion and maintain their culture 
without state interference--rights guaranteed to China's nationalities 
under the PRC's constitution--and they seek a meaningful voice in 
Tibetan affairs.
    For decades, China has kept tight controls on Tibetan Buddhism, and 
for decades China has directed the economic affairs of Tibet without 
listening to the Tibetan people. China's repressive policies are not 
unique to Tibet--Chinese in other parts of the country also routinely 
express their frustration at the government's failure to respect their 
fundamental human rights.
    The fact that Tibetan unrest is not unique also tells me that the 
United States response to the unrest must go beyond simple 
condemnations of China's conduct. We need to redouble our efforts 
inside Tibet--with funding for nongovernmental organization such as the 
Bridge Fund--to strengthen the voice of the Tibetan people in the areas 
of economic development and cultural preservation. And throughout 
China, we need to do much more to foster respect for the rule of law, 
religious freedom, transparency, and accountability in government. 
China's heavy hand in Tibet is a symptom of a much larger problem--the 
failure of the Chinese Government to listen to the legitimate 
grievances of its people and to respond constructively to those 
complaints.
    Thank you again, Madam Chairwoman, for convening this important 
hearing.

                                  <all>

</pre></body></html>
